<html>
<title> - HEARING ON H.R. 3262; H.R. 3484; H.R. 4056; H.R. 4129; A DRAFT BILL TO AMEND THE VETERANS' BENEFITS PROGRAMS IMPROVEMENT ACT OF 1991 TO AUTHORIZE VA TO SELL PERSHING HALL; AND, VA'S LEGISLATIVE PROPOSAL REGARDING FISCAL YEAR 2016 CONSTRUCTION PROJECTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








HEARING ON H.R. 3262; H.R. 3484; H.R. 4056; H.R. 4129; A DRAFT BILL TO 
   AMEND THE VETERANS' BENEFITS PROGRAMS IMPROVEMENT ACT OF 1991 TO 
  AUTHORIZE VA TO SELL PERSHING HALL; AND, VA'S LEGISLATIVE PROPOSAL 
            REGARDING FISCAL YEAR 2016 CONSTRUCTION PROJECTS

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, DECEMBER 8, 2015

                               __________

                           Serial No. 114-47

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
         

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-702                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                         SUBCOMMITTEE ON HEALTH

                    DAN BENISHEK, Michigan, Chairman

GUS M. BILIRAKIS, Florida            JULIA BROWNLEY, California, 
DAVID P. ROE, Tennessee                  Ranking Member
TIM HUELSKAMP, Kansas                MARK TAKANO, California
MIKE COFFMAN, Colorado               RAUL RUIZ, California
BRAD R. WENSTRUP, Ohio               ANN M. KUSTER, New Hampshire
RALPH ABRAHAM, Louisiana             BETO O'ROURKE, Texas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



















                            C O N T E N T S

                              ----------                              

                       Tuesday, December 8, 2015

                                                                   Page

Hearing On H.R. 3262; H.R. 3484; H.R. 4056; H.R. 4129; A Draft 
  Bill To Amend The Veterans' Benefits Programs Improvement Act 
  Of 1991 To Authorize VA To Sell Pershing Hall; And, VA's 
  Legislative Proposal Regarding Fiscal Year 2016 Construction 
  Projects.......................................................     1

                           OPENING STATEMENTS

Honorable Dan Benishek, Chairman.................................     1
Honorable Julia Brownley, Ranking Member.........................     2
Honorable Jerry McNerney, Member.................................     6

                               WITNESSES

Honorable John Shimkus, U.S. House of Representatives, 15th 
  Congressional District; Illinois...............................     3
    Prepared Statement...........................................    26
Honorable Ted Lieu, U.S. House of Representatives, 33rd 
  Congressional District; California.............................     4
    Prepared Statement...........................................    26
Honorable John L. Mica, U.S. House of Representatives, 7th 
  Congressional District; Florida................................     5
    Prepared Statement...........................................    28
Honorable Mike Coffman, U.S. House of Representatives, 6th 
  Congressional District; Colorado...............................     7
    Prepared Statement...........................................    30
Raymond C. Kelley, Director of the National Legislative Service, 
  Veterans of Foreign Wars of the United States..................    10
    Prepared Statement...........................................    39
Howard Trace, Director of the National Library and Museum 
  Division, The American Legion..................................    12
    Prepared Statement...........................................    40
        Accompanied by:

    Lou Celli, Director of the National Veterans Affairs and 
        Rehabilitation Division, The American Legion
Stella S. Fiotes, Director of the Office of Construction and 
  Facilities Management, Office of Acquisition, Logistics, and 
  Construction, U.S. Department of Veterans Affairs..............    17
    Prepared Statement...........................................    43

 
HEARING ON H.R. 3262; H.R. 3484; H.R. 4056; H.R. 4129; A DRAFT BILL TO 
   AMEND THE VETERANS' BENEFITS PROGRAMS IMPROVEMENT ACT OF 1991 TO 
  AUTHORIZE VA TO SELL PERSHING HALL; AND, VA'S LEGISLATIVE PROPOSAL 
            REGARDING FISCAL YEAR 2016 CONSTRUCTION PROJECTS

                              ----------                              


                       Tuesday, December 8, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                    Subcommittee on Health,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 334, Cannon House Office Building, Hon. Dan Benishek 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Benishek, Bilirakis, Huelskamp, 
Coffman, Wenstrup, Brownley, Takano, and Kuster.
    Also Present: Representative McNerney.

          OPENING STATEMENT OF DAN BENISHEK, CHAIRMAN

    Mr. Benishek. The Subcommittee will come to order.
    Before we begin, I would like to ask unanimous consent for 
a fellow Committee Member, Congressman Jerry McNerney from 
California, to sit on the dais and participate in today's 
proceedings. Without objection, so ordered.
    Good morning. Thank you all for joining us today. This 
morning we are going to discuss six pieces of legislation all 
of which concern some element of VA's construction and real 
property asset portfolio.
    The last two years have seen a string of high-profile 
failures for VA major construction projects across the country. 
These failures are exemplified, of course, by the replacement 
medical center construction project in Denver, Colorado.
    As we are all too well aware at this point, the Denver 
project began as a discussion in 1999 between the VA and the 
University of Colorado regarding the possibility of a shared 
facility on the former Fitzsimons Army Base in Aurora, 
Colorado.
    Almost 17 years later, after undergoing a laundry list of 
scope changes, cost increases, and schedule delays that 
culminated in a decision one year ago by the Civilian Board of 
Contract Appeals that found the VA in breach of its contract 
with the project's general contractor, VA finally came to 
Congress to admit that the project required an additional $830 
million in funding which was then slightly adjusted to a total 
authorization requirement of $1.675 billion, triple the 
original authorization to continue moving forward.
    Though Congress and this Committee have taken steps to 
address many of the deficiencies that have been identified in 
the management of VA major construction projects, serious 
concerns persist about the department's ability to effectively 
manage a complex and costly construction portfolio.
    Until these concerns are sufficiently addressed, it would 
be remiss for this Committee to authorize VA to carry out any 
more major construction projects or leases without extreme 
scrutiny and due diligence.
    Along those lines, I am extremely disappointed that the 
Subcommittee did not receive the text of the VA's legislative 
proposal concerning fiscal year 2016 construction authorization 
until 8:42 this morning. The department had more than adequate 
notice of this hearing and there is no excuse for not providing 
the text of their own legislative proposal in a more timely 
manner.
    I am grateful to the sponsors of the bills that are being 
considered today and to the witnesses from our veteran service 
organizations and VA for being here to share their views.
    I look forward to hearing their testimony, and now yield to 
Ranking Member Brownley for any opening statement she may have.

      OPENING STATEMENT OF JULIA BROWNLEY, RANKING MEMBER

    Ms. Brownley. Thank you, Mr. Chairman, and thank you for 
calling this legislative hearing.
    I would also like to thank my colleagues who are testifying 
on their legislation to help improve veterans' access to health 
care and VA services.
    Although there are many important bills dealing with 
construction on this morning's agenda, I would like to focus on 
the Los Angeles Homeless Veterans Leasing Act, a bill which I 
have cosponsored and which will help fight veteran homelessness 
in southern California. Ten percent of America's homeless 
veterans live in the Los Angeles region including some from my 
own congressional district in Ventura County.
    This legislation authorizes the settlement agreement 
Secretary McDonald reached with the plaintiffs of a long-
running lawsuit regarding the misuse of the West Los Angeles VA 
Campus and is supported by the Disabled American Veterans, The 
American Legion, and the Vietnam Veterans of America.
    Unless it is passed, the secretary will not have the 
authority he needs to transform the West LA Campus into a 
first-class community for veterans and their families with 
improved access to VA housing, to VA health care, and to VA 
services.
    I look forward to hearing from my friend, Representative 
Lieu, on his bill and all the witnesses today on their 
legislation.
    Thank you, Mr. Chairman. I yield back.
    Mr. Benishek. Thanks.
    I am honored to be joined this morning by several of my 
colleagues to speak in support of their legislation. With us 
today is the Honorable John Shimkus from Illinois; the 
Honorable Ted Lieu from California; Mr. Mica from Florida 
should be joining us shortly; the Honorable Jerry McNerney from 
California; and Mr. Coffman from Colorado as well should be 
joining us.
    Thank you all for being here today and for sponsoring the 
bills on today's agenda. We will begin with Representative 
Shimkus.
    You have five minutes. Please proceed.

               OPENING STATEMENT OF JOHN SHIMKUS

    Mr. Shimkus. Thank you, Mr. Chairman and Ranking Member 
Brownley. Thank you for the opportunity to come before this 
Committee to discuss the simple yet important bill and for 
taking the time to consider it today.
    As a five-year active Army officer and a 23-year reservist, 
I always feel home with my fellow veterans and those on this 
Committee that serve them.
    In my district is a town called Danville, Illinois which is 
a small town by most standards, but it is the largest in my 
congressional district. It has a rich history. It was the home 
of Dick Van Dyke who grew up in Danville and Speaker Joe 
Cannon, the namesake of the building we are in today.
    Two institutions Danville prides itself on are the VA 
Illiana Health Care System and Danville Area Community College. 
The relationship between the VA and Danville Area Community 
College is an excellent example of two institutions working 
today to serve our veterans.
    The location of the VA hospital adjacent to the community 
college campus provides our veterans returning home a one-stop 
opportunity for medical treatment and help with benefits while 
at the same time the education and training experiences that 
help them transition into a career in civilian life.
    [The attachment appears in the Appendix]
    Mr. Shimkus. My bill H.R. 3262 is simple. It allows the VA 
to transfer .68 acres of land from its property in Danville in 
exchange for 1.06 acres of land currently owned by Danville 
Area Community College. Swapping the land provides benefits to 
both the VA and the local community.
    The Danville VA has looked into the possibility of building 
a fence along its perimeter, but as the property lines are 
currently drawn, that boundary is not a straight line. Swapping 
these two parcels will fix that problem, cutting construction 
costs should the VA choose that option.
    The VA's current property that would be transferred 
includes a Carnegie library that is more than a century old. 
The building has become so deteriorated and expensive to 
maintain that the VA has stopped using it and it now sits 
vacant.
    Danville Area Community College and the local community on 
the other hand see great potential for the library. With the 
generous help of a private donor, Danville Area Community 
College plans to transform the old building into an art center.
    By swapping these parcels of land, we can relieve the VA of 
the burden of maintaining an old building while providing the 
community with a historically significant location for a 
cultural attraction. While small in terms of acreage, this swap 
is big in terms of benefits for the VA, Danville, and my 
constituents.
    I thank the Committee for this opportunity and their 
consideration. I look forward to working with you to move this 
bill forward. This weekend is the historic Army/Navy game and 
with great trepidation, I will end with a hardy beat Navy. And 
I yield back my time.

    [The prepared statement of John Shimkus appears in the 
Appendix]

    Mr. Benishek. Thank you, Mr. Shimkus.
    Representative Lieu, you may now proceed with your 
testimony.

                 OPENING STATEMENT OF TED LIEU

    Mr. Lieu. Thank you, Chairman Benishek, Ranking Member 
Brownley, and Members of this Committee. Thanks for letting me 
discuss H.R. 3484, the Los Angeles Homeless Veterans Leasing 
Act.
    [The attachment appears in the Appendix]
    Mr. Lieu. As a veteran, it is a privilege to represent the 
West LA Medical Center, the largest VA in the Nation. This 
hospital does a tremendous amount of good every day for our 
veterans.
    However, LA County is also ground zero for homeless 
veterans with thousands sleeping on the streets each night. The 
numbers are daunting and the urgency to provide permanent homes 
to these veterans is a priority.
    This West LA VA has a complicated history, and for many 
years, the campus was mismanaged. However, as Ranking Member 
Brownley stated, there has been a significant shift that 
occurred this year when the VA secretary settled a lawsuit 
brought on behalf of homeless veterans.
    The terms of the settlement call for the development of a 
massive plan for the entire campus. In addition, part of this 
plan is a comprehensive homeless plan that has been developed 
for the region and implementation has already begun.
    A critical part of the massive plan and the homeless plan 
includes the construction of permanent supportive housing. As 
this Subcommittee knows, housing first is an evidence-based 
model for providing stable, permanent housing so veterans can 
both be housed as well as get services following their housing.
    The best vehicle for the development of this housing is a 
public/private partnership known as enhanced-use leases. These 
leases enable leasing terms for up to 75 years. Every other VA 
facility in the Nation can do these leases except this one. 
There was a complicated history for why this was not allowed, 
but now the climate is different and the massive plan and 
homeless plan will not succeed without this important leasing 
tool.
    The public comment period for the draft master plan closed 
yesterday. The VA will now review the nearly 1,000 public 
comments and update the draft plan. And I hope that we can work 
all stakeholders to move forward, but we do need this 
legislation to allow this master plan to go forward so that 
these housing units can be built.
    I also note that nothing in this legislation is meant to 
impede a subway stop to occur at the West LA VA Campus if that 
is what happens in the future. This legislation has nothing to 
do with that.
    I would like to enter my complete statement as well as 
letters and resolutions in support of H.R. 3484 into the 
record. And thank you again for the Committee for letting me 
testify.

    [The prepared statement of Ted Lieu appears in the 
Appendix]

    Mr. Benishek. All right. Thank you, Representative Lieu. 
And without objection, we will add that stuff to the record.
    [The attachment appears in the Appendix]
    Mr. Benishek. Representative Mica, please proceed with your 
testimony.

               OPENING STATEMENT OF JOHN L. MICA

    Mr. Mica. Well, thank you and good morning, Mr. Chairman 
and Ranking Member.
    [The attachment appears in the Appendix]
    Mr. Mica. The simple proposal H.R. 4056, and that would 
take an existing nursing facility that has been vacated with 
the construction of a new one down in Lake Nona, Florida to the 
south of Orlando and opened about a year ago. Some of that 
space has been used for transition and staffing our new 
hospital, but we have known it is going to be vacant for some 
time, that facility.
    In fact, back in 2012, and I would like this to be made 
part of the record, I wrote then Secretary Shinseki that it is 
going to be vacant, what are we going to do with it. Then in 
2014, I wrote Gibson it is going to be vacant, what are we 
going to do with it. So now it is vacant.
    And with the VA's difficulties sometimes in moving forward, 
I have hundreds of aging veterans in Central Florida and we 
have a vacant nursing home built fairly recently. I was there 
for the dedication, I think in 1998, about 17 years old and in 
very good condition.
    It has been used for some swing space and some other 
intermediate services with a new complex opening to the south. 
The quickest way to get this activated is to transfer it to the 
State of Florida. That is what this bill does. The State VA now 
has seven nursing facilities, excellent, and I visited them.
    They do it cheaper, better, faster. They have a scale that 
you can manage things with. They have agreed to take it on, so 
we have agreement from the State. I think we have agreement 
from the feds, VA, and that is what the bill does. It asks for 
a little waiver because it was built for singles and not 
doubles. And many of the veterans like that accommodation. Some 
can be transitioned to doubles.
    But we want to get it done as soon as possible, and get our 
veterans the care and attention in nursing facilities as the 
population ages and the needs continue.
    So that is basically the proposal, and I would ask your 
support. We want to get it done as soon as possible.

    [The prepared statement of John L. Mica appears in the 
Appendix]

    Mr. Benishek. Thank you for your testimony. We will add 
those documents to the record without objection.
    Mr. Mica. Great. Thank you.
    Mr. Benishek. Thanks for your testimony.
    [The attachment appears in the Appendix]
    Mr. Benishek. Mr. McNerney, you are recognized.

              OPENING STATEMENT OF JERRY MCNERNEY

    Mr. McNerney. I thank Chairman Benishek and Ranking Member 
Brownley and Members of the Subcommittee.
    [The attachment appears in the Appendix]
    Mr. McNerney. I want to talk a little bit about a proposal, 
H.R. 4129, to allow the Federal Government to partner with non-
Federal organizations to facilitate construction. We have seen 
how the Federal construction project has been mismanaged in the 
past.
    Members in my community have waited ten years to break 
ground on a project and it is being held up because of 
mismanagement at the VA. So I am going to read my prepared 
statement.
    In my district, I have experienced firsthand how veterans 
have needed to travel long distances to receive care. I 
volunteered to go with a veteran to the nearest VA facility for 
a podiatry appointment, a half an hour podiatry appointment. It 
took all day. It took ten hours of time for us to leave our 
house, go to the facility, return. And it was a very maddening 
situation.
    In 2013, 50 major construction projects were under 
management by the VA at a cost of more than $12 billion. The 
GAO report found that some of the VA's largest medical 
construction project costs had skyrocketed, as Mr. Coffman has 
noted, and significant delays threw these projects off track. 
Projects in Denver, Las Vegas, Orlando, New Orleans have all 
experienced significant setbacks in their construction. 
Veterans and their families are waiting meanwhile and taxpayers 
suffer.
    The GAO found that as of January 2015, delays for these 
projects range from 14 to 86 months and cost increases range 
from 66 percent to 144 percent. This includes the cost of the 
New Orleans project increasing by $40 million and the Orlando 
project being delayed by 57 months.
    The buildings of the VA are on average 60 years old. The VA 
currently manages and maintains more than 5,600 buildings and 
almost 34,000 acres of land. According to the VA, more than 
3,900 infrastructure gaps remain at an estimated cost of 
between $54 billion and $66 billion to close including $10 
billion in activation costs.
    So we can see that the VA is not doing a very good job of 
managing. We need another model so that we can move forward 
expeditiously with these projects.
    My bill, the Jumpstart VA Construction Act, is intended to 
help reduce the construction backlog of VA projects by allowing 
for more partnerships between non-Federal entities such as 
state and local governments.
    My bill would permit these non-Federal entities and 
partners to raise half of the funds for major medical projects 
and facilitate the construction process. Project restrictions 
include major medical facility projects where Congress has 
already approved appropriated funds, the design and development 
phase is complete, and the construction has not begun as of the 
date of the enactment of this act.
    The VA is already moving from managing major construction 
projects and has proposed having the Army Corps of Engineers be 
the project lead, though it is my understanding that this 
process has yet to be resolved, and I hope to get a chance to 
speak to the secretary this week. And I look forward to hearing 
from the VA about this effort and what progress, if any, has 
been made in determining how to best manage major construction 
projects.
    I am open to working with Members of this Committee and 
Subcommittee to enhance my bill, but I am committed to 
reforming the process to make sure that we are providing 
veterans with more opportunities to access quality health care.
    Now, as I conclude, I just want to say that I appreciate 
the VA supporting the inclusion of $450 million for the 
realignment project that would facilitate the building of the 
French Camp facility in my district, and I yield back.
    Mr. Benishek. Thank you, Mr. McNerney.
    I would like to recognize Mr. Coffman. You may begin.

               OPENING STATEMENT OF MIKE COFFMAN

    Mr. Coffman. Thank you, Mr. Chairman, for holding this 
legislative hearing and including my legislation that would 
authorize the Department of Veterans Affairs to sell Pershing 
Hall, a five-star boutique, 24-room hotel, restaurant, and club 
in the heart of Paris, France.
    [The attachment appears in the Appendix]
    Mr. Coffman. What is today known as Pershing Hall was 
purchased by The American Legion in 1928 to serve as a memorial 
for General John J. Pershing and the soldiers who fought in 
World War I. The United States Government acquired the property 
in the 1930s and after a long period of neglect, VA obtained 
jurisdiction and control over Pershing Hall in 1991.
    Later in 1998, VA signed a 99-year enhanced-used lease to a 
French firm allowing it to invest millions of dollars to 
renovate and redevelop the property as a hotel. Today, Pershing 
Hall is popular in Paris for its open sky restaurant and a 
vertical garden of more than 100 feet.
    My colleagues on the dais have been distributed several 
photos of Pershing Hall as it exists today.
    In short, my bill provides VA the authority to sell 
Pershing Hall and it requires an independent real estate 
assessment of the property prior to any sale to ensure 
taxpayers receive the fair market value.
    Additionally, VA should be required to ensure that any 
personal property originally belonging to The American Legion 
such as historical artifacts and artwork be returned when the 
facility is sold. The proceeds from the sale and the corpus of 
VA's Pershing Hall revolving fund would be deposited into VA's 
major construction account for use on construction and 
renovation projects in the United States.
    My bill is not the first proposal to sell Pershing Hall. In 
1993, Senator Jay Rockefeller, the Chairman of the Senate 
Veterans' Affairs Committee, introduced legislation which would 
have authorized the sale of the property. At that time, VA 
supported the provision and testified that the authority would 
allow the secretary more options to consider in determining the 
best interest of the United States Government.
    One pertinent portion of the 1993 committee report still 
rings true today. Quote, ``Managing property in Europe is a 
very unusual activity for VA. The agency, therefore, is not set 
up to perform this activity in a cost-effective manner. The 
only incentive to lease the property would arise from the need 
to safeguard the building as a memorial, but this objective 
could be accomplished through restrictive covenants if the 
property were sold.''
    Aside from the infusion of capital into VA's construction 
account, authorizing the sale of Pershing Hall also puts two 
broader VA reform initiatives into focus. First, managing 
property leases is not a core competency of the Department of 
Veterans Affairs.
    The Oversight and Investigations Subcommittee held a 
hearing earlier this year examining VA's wasteful land 
management practices after the Government Accountability Office 
identified significant problems with VA's land-use agreements. 
Specifically, GAO found problems with unenforced payments or 
other agreement terms, expired agreements, and instances where 
land-use agreements did not exist.
    As this Committee deliberates how best to refocus VA 
towards its core competencies, oddly helping VA get out of the 
French real estate market is a safe bet.
    Finally, VA consistently asks Congress to grant it 
legislative flexibility to dispose of its excess 
infrastructure, most recently in its November plan, to 
consolidate community care programs. It seems odd that VA 
should consider the sale of domestic VA property while the sale 
of a hotel in Paris is off limits.
    Thank you again, Chairman Benishek and the Ranking Member, 
for allowing me to give this testimony on Pershing Hall. And I 
urge all my colleagues on this Committee today to join me in 
this effort. With that, I yield back.

    [The prepared statement of Mike Coffman appears in the 
Appendix]

    Mr. Benishek. Thank you, Mr. Coffman.
    Well, thank you, gentlemen, for these great common-sense 
proposals here.
    I am going to yield myself five minutes for questions. I 
have just got a couple of questions.
    Mr. Shimkus, are there any drawbacks or challenges in 
completing this transfer? I mean, we are not going to find out 
about some problem in the future here?
    Mr. Shimkus. You know, we have talked with all the 
stakeholders, for really now, I have represented this area 
about three plus years. And the answer is no. No one has come 
up with any objection. It is just efficiency.
    And this Carnegie library which I have been in is, you 
know, a library that is falling in. And there are some local 
community leaders that have pledged a lot of money to help 
rehab that.
    I think that is the most compelling thing. It gets it off 
of the VA books and gets it into the community college books. 
And it will be turned into an art center which is also a great 
thing. So there is no objection that I have heard of.
    Mr. Benishek. All right. Cool.
    Mr. Lieu, the second panel, the VFW is going to testify 
about 3484 but recommend amending the bill to remove a section, 
Section 2B3. That would create carve-out for the existing 
lessees. According to the VFW, there should be no special 
treatment or consideration for any current leases that cannot 
fulfill the requirements of Section 2B2 of the legislation.
    Can you tell me more about this?
    Mr. Lieu. Sure. It is not a carve-out. The VA secretary 
still has to approve all leases at the campus. And this section 
also says the provision of services to veterans still has to 
remain the predominant focus of activities.
    So it is not a carve-out. It simply authorizes the VA 
secretary, if he wants to, to approve this lease. In addition, 
I would note that the local VFW supports this legislation.
    Mr. Benishek. Okay. I think that is all that I am asking.
    Ms. Brownley, do you have any questions for the panel?
    Ms. Brownley. Yes, just quickly to Mr. Mica.
    So with the transfer of the facility, the VA involvement in 
the community living center will be finished is my 
understanding and there will be no further requests for funding 
for the veterans living there; is that correct?
    Mr. Mica. That is right. We are going to transfer the 
property, the nursing facility to State VA and they will 
operate it. And so it is a win-win, less Federal taxpayer 
monies, and they actually run their facilities. They have seven 
in the State of Florida. It is not an amateur hour transfer. So 
we are pretty excited about it and we have the need. And that 
is the most important thing.
    Ms. Brownley. Thank you.
    And to Mr. Lieu, again, thank you for bringing, I think, 
this very, very important bill forward. And I am proud to be a 
coauthor and standing with you on this legislation.
    There is no question previously the facility has been 
mismanaged and I think we are finally taking the right steps 
forward, I think, with almost universal community backing on it 
which would not have been the case a couple of years ago. I can 
attest to that.
    And I think I just wanted to ask you if you could just 
expand a little bit beyond the homelessness issue because we 
know how pervasive that is in Los Angeles and, you know, ten 
percent of the United States population, homeless population is 
in the Los Angeles area.
    But if you could talk a little bit about some of the other 
provisions in the bill that are going to provide services 
particularly as it relates to UCLA, the Brentwood School, and 
talk about some of the services that will be available for 
veterans that are going to help our veterans in the local area.
    Mr. Lieu. Sure. And thank you for that question.
    So as part of this settlement that the VA secretary entered 
into, basically the campus has to be veteran-centric. And so 
the services, the leases all have to have that focus. So this 
bill doesn't say that the VA secretary has to approve anything. 
It is still completely in the discretion of the VA secretary.
    And so the VA still has to go through all these leases and 
decide, for example, with Brentwood School, do they want to 
approve that lease or not. This bill doesn't say anything about 
that. What Brentwood School would need to do is to say what we 
are doing is essentially focused on veterans and providing 
services to veterans. And that is a decision that they will 
work out or not work out with the department. Same with UCLA. 
Same with any other lease on this campus.
    What this bill intends to do is deal with the homeless 
housing part of it, that they need to build these public/
private partnerships to construct the housing. So that is what 
this bill primarily deals with.
    And then on the homeless, I do want to note that, first 
off, thank you for all your work on this issue as well, but the 
West LA VA Campus can be part of the solution. It can't be the 
only one. And so there is a recommendation that the entire LA 
County as well as other counties are going to be involved to 
help reduce homelessness across the southern California region.
    Ms. Brownley. Thank you.
    I yield back.
    Mr. Benishek. Do you guys have any questions, Mr. 
Huelskamp, Mr. Coffman? No?
    All right. I think you are all excused. Thank you very much 
for your legislation and your testimony.
    We are going to now welcome the second panel to the witness 
table. Joining us on the second panel is Raymond Kelley, the 
Director of the National Legislative Service for the Veterans 
of Foreign Wars of the United States, and Howard Trace, the 
Director of the National Library and Museum Division of The 
American Legion. Mr. Trace is accompanied by Lou Celli, the 
Director of the National Veterans Affairs and Rehabilitation 
Division of The American Legion.
    Thank you all for being here today and your hard work and 
advocacy on behalf of our veterans. I look forward to hearing 
the views of your Members.
    We will begin with Mr. Kelley.

                 STATEMENT OF RAYMOND C. KELLEY

    Mr. Kelley. Mr. Chairman, Ranking Member Brownley, Members 
of the Committee, thank you for the opportunity for the VFW to 
testify before your Subcommittee today.
    H.R. 3262 authorizes the Department of Veterans Affairs to 
convey approximately .6 acres of land included on which is 
building number 48 to the Danville Area Community College. In 
exchange, Danville Community College will convey approximately 
1.06 acres of land back to VA.
    This conveyance will benefit both VA and the community 
college. VA has plans to place a fence around the property and 
it will save the VA money by making the property a straight 
line.
    VA will also save funds that would otherwise be obligated 
for the maintenance of building number 48 which is currently 
unutilized. The community college wants building number 48 so 
it can be refurbished and used as an art center.
    This conveyance makes sense to the VFW. It will relieve the 
VA of a building they no longer use, saving them money, and the 
college gains a building they can use for students. The VFW 
supports this legislation.
    The West LA Campus was deeded through a will to the Federal 
Government in 1888 with the explicit intent for the property to 
be used to assist veterans. This bill will realign the property 
with the original intent of that deed.
    The VFW agrees in principle with this legislation because 
it returns the property to its rightful owners, the veterans of 
West LA. The VFW has concerns, though, with Section 2, 
paragraph B3. This section of the bill appears to provide a 
specific carve-out for one or more of the current leases. There 
should be no special treatment or consideration for any current 
leases that cannot fulfill the requirements of Section 2, 
paragraph B2 of this legislation.
    The VFW supports the intent of H.R. 3484, but would ask 
that paragraph B3 be removed to ensure that all leases meet 
requirements of paragraph B2 of this bill.
    H.R. 4056 will authorize the conveyance of a community 
living center or a CLC at the Lake Baldwin Veterans Affairs 
Community Outpatient Clinic to the Department of Veterans 
Affairs of Florida. The 60-bed CLC described in this 
legislation is currently being used as transitional storage 
while VA moves to its new facility.
    Currently, the VA does not have plans to reopen the CLC. 
But by conveying this building to the Florida Department of 
Veterans Affairs, the facility will be able to reopen quickly 
to serve the veterans of the Lake Baldwin area. The VFW 
supports this legislation.
    The Department of Veterans Affairs has managed Pershing 
Hall which is now owned by VA and is leased as a hotel in 
Paris, France. The current lease is set to expire in 2097. The 
VFW believes that VA should not be in the hotel business, but 
disposal of the hotel should be a business decision and not 
just an effort to no longer own the building.
    The VFW is glad to see that the draft legislation contains 
language stating the property be sold at fair market value 
determined by an independent assessment. The VFW would, 
however, recommend that this Committee consider amending the 
draft legislation to include language that would call for a 
prospectus that will outline the cost, if any, of breaching the 
lease agreement and the loss of annual revenue that the lease 
currently provides.
    With this fiscal data, VA and the Committee can more 
clearly see the fiscal positives and negatives of selling this 
property.
    The VFW supports the legislative proposal that will allow 
VA to plan, design, construct, and lease joint VA/DoD shared 
medical facilities. There are already current sharing 
agreements and 11 joint VA/DoD facilities that have been viewed 
very positively by both communities. The authority makes sense 
and aligns with the Independent Budget's framework that will 
allow VA to better partner with public agencies to better 
provide veterans with timely access to health care. The VFW 
supports this legislative proposal.
    The VFW has not taken a position on H.R. 4129, but we look 
forward to working with Congressman McNerney on this 
legislation. Public/private partnerships are a cornerstone of 
the future of VA and they need to be explored. We just need a 
little more time to take a look at that piece of legislation.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer any questions you or the Committee Members may have.

    [The prepared statement of Raymond C. Kelley appears in the 
Appendix]

    Mr. Benishek. Thanks, Mr. Kelley.
    Mr. Trace, you may begin your statement.

                   STATEMENT OF HOWARD TRACE

    Mr. Trace. In May of 1935, addressing the spring meeting of 
the National Executive Committee of The American Legion, 
Chairman Paul Herbert of the Paris Memorial Building Committee 
had this to say about the historic landmark Pershing Hall.
    Quote, ``At present time, the building is the center of 
American patriotic and civic activities in France and 
Continental Europe. It has enabled The American Legion to carry 
on a splendid program of rehabilitation among our veterans 
residing in France and has extended help to countless numbers 
of Americans particularly veterans who have become destitute in 
Europe. It has been a refuge for many destitute families and 
has been a haven for American orphan children and has supported 
for years as high as 200 orphan children. It has maintained for 
years a school for American children in France and has afforded 
the only opportunity to instruct these children in the English 
language and the traditions of Americanism,'' unquote.
    Good morning, Chairman Benishek, Ranking Member Brownley, 
and Members of the Committee. On behalf of our national 
commander, Dale Barnett, and over two million members of The 
American Legion nationwide, thank you for inviting us here 
today to discuss the legislation before this Committee.
    You have my written remarks on the slate of legislation. I 
would like to spend some time today focusing on one of the 
bills, Representative Coffman's draft legislation to facilitate 
the sale of Pershing Hall.
    As the opening story relates, Pershing Hall once was a 
touchstone in the middle of Paris, a visible symbol of the 
foothold of the American Expeditionary Force carved into the 
landscape of war-torn Europe in the Great War. Even today, if 
you walk the streets of Paris, you see above the door to this 
building quite distinctly the emblem of The American Legion 
marking what was once a center of remembrance of the American 
sacrifices in the first World War.
    The building was purchased by The American Legion and set 
up following our national convention in 1927. Subsequent 
legislation would turn ownership over to the U.S. Government in 
1935 and fully to the VA in 1991.
    In recent years, the building has operated as a luxury 
hotel and spa far from its initial purpose as a memorial and a 
place of remembrance for those who fought and sacrificed on 
behalf of our allies.
    When The American Legion asked the government to pay off 
and assume control of the building, it was never imagined that 
the building would be used for any purpose other than as a 
memorial and space in Paris for those who had served in the 
first World War and subsequent wars.
    Mr. Coffman's legislation would pave the way for the 
building to be sold. VA has many tasks to serve veterans and 
property management overseas is not at the top of the list of 
those tasks. If there are ways this could help VA's much 
troubled construction fund, then it is a productive use of 
funds and we support Mr. Coffman's bill.
    The American Legion was founded among other reasons to 
preserve the memories and incidents of our associations in the 
Great Wars. In 1991, VA provided a partial inventory of the 
artifacts and items associated with Pershing Hall and the list 
is extensive covering over 14 pages and two continents. We 
believe there are pieces of history in Pershing Hall itself in 
Paris, in Compiegne, France, in VA's central office here in 
Washington, in the VA Medical Center in Mountain Home, 
Tennessee, even in VA's New York regional office. There may be 
even more locations and more items, but they still represent an 
important piece of the history of this country and the men and 
women who fought for America.
    The materials deserve to be kept together for the original 
purpose, to honor and remember General Pershing and those who 
fought in World War I. The American Legion wants to establish 
permanent American Legion custodianship of the Pershing Hall 
art, artifacts, furnishing, memorabilia, and other items so 
that they can be interpreted for public display and protected 
from damage or disappearance.
    All of these historical artifacts would need to be 
collected, inventoried, appraised, and prepared and preserved. 
There is a Pershing Hall revolving fund of investments 
dedicated to providing for the needs of Pershing Hall with VA 
authorized to utilize the funds under certain prescribed 
circumstances.
    The American Legion recognizes that with the sale of 
Pershing Hall, this fund and the monies contained therein will 
transfer to the construction accounts as dictated by the 
legislation.
    However, it is wholly appropriate that some portion of 
these funds is needed to provide for the preservation and 
proper treatment of the artifacts and material be dedicated to 
the transfer of these vital historical artifacts.
    The monies were initially intended to provide for the 
preservation of history. And while they have been utilized for 
many other purposes since that time, that does not remove the 
original intent.
    If there are costs associated with transferring, shipping, 
storing, appraising, and conserving artifacts through the 
transfer process, The American Legion believes these costs 
should be borne by the revolving fund.
    The American Legion is very grateful to Representative 
Coffman for his ongoing work with The American Legion through 
recognition of our role in the history of this landmark. 
Through every step of the process, he and his staff have 
striven to ensure history is protected and preserved in the 
transfer of the property.
    It is disconcerting and troubling that this site could have 
drifted so far from its initial intended disposition as a place 
of remembrance and history. But if it is to have purpose in the 
future, at least there is some merit in finally ensuring that 
the history it represents is put in the hands of those who will 
be careful custodians of the past.
    This legislation has the potential to help VA meet the 
infrastructure challenges of the 21st century. However, it must 
also serve to help preserve the memory of what was fought for 
and sacrificed for at the dawn of the 20th century.
    Thank you for your consideration today. I am happy to 
answer any questions to the best of my ability about The 
American Legion's involvement in Pershing Hall, and Director 
Lou Celli of the Veterans Affairs and Rehabilitation Division 
is here to assist with any questions about other legislation.

    [The prepared statement of Howard Trace appears in the 
Appendix]

    Mr. Benishek. Thank you both for your testimony.
    I am going to yield myself for some questions. Mr. Kelley, 
tell me more about this West LA Campus concern. I tried to 
bring it up when Mr. Lieu was here. Did he address the concerns 
that you have in his answer there? I just want to be sure that 
this all moves forward. I mean, he said it wasn't a carve-out. 
You said it is a carve-out. So can you just elaborate a little 
more about your concern?
    Mr. Kelley. So the VFW is not opposed to any of the leases 
that are there to be maintained there. But we feel there ought 
to be parity in the way that all those leases are looked at. 
And if there is a specific provision for a specific one or two 
of those current leases, then there is not parity between 
those.
    I believe that the UCLA property could very easily fall 
under Section 2B2, Subsection D, the peer activity 
socialization and physical recreation portion of that, and 
wonder why that lease isn't being held to the same scrutiny as 
any of the current or future leases that are being held there.
    So that is what we want. We want to make sure that 
everybody is treated equally. This property has obviously 
gotten to the point of mismanagement. That didn't happen 
overnight. It was over time that little things were overlooked, 
and if we start legislation by overlooking some little things, 
we are heading back down that road in another hundred years 
from now.
    Mr. Benishek. All right. What policies would you like to 
see the VA put in place to make sure this doesn't happen?
    Mr. Kelley. I think Section 2B2 does that. I think that 
very clearly states how those leases have to be involved on 
that campus. And I believe that each one of the leases that are 
there that are going to be maintained, any future leases, 
should be held to that scrutiny.
    Mr. Benishek. All right. Mr. Trace, The American Legion 
testimony forcefully references a need to ensure that revenues 
resulting from leases in the West LA Campus are well-
documented, tracked, and transparently spent.
    Can you elaborate a bit on the concerns regarding revenues 
on the West LA Campus?
    Mr. Celli. Chairman, I would be happy to answer that for 
you.
    Mr. Benishek. All right.
    Mr. Celli. And The American Legion echoes some of the same 
concerns that the VFW has. And we also understand that the 
intent of the proposed or of the draft agreement does cover 
many of those concerns, but we look to the past so that we can 
try to see what is going to happen in the future.
    We want to make sure that the revenue that was received by 
the West LA VA facility is accounted for in some of those prior 
leases. And we are very concerned that there are millions of 
dollars that have been received that are unaccounted for even 
today. And we have asked for an accounting of that and still 
yet have not received it.
    We are very pleased that through this draft process, 
veteran service organizations were consulted and were involved 
in some of those draft proposals. We are very pleased about 
that.
    And I would be remiss if I didn't point out there is a lot 
to be angry at the VA in recent months and years, but we would 
not be here today had it not been for Secretary McDonald and 
Under Secretary Sloan stepping up as soon as they got into 
position to make sure that this didn't get any more out of hand 
than it needed to and was able to broker this agreement. And we 
applaud them for that.
    And we would like to be able to continue as a community in 
that same vein of working together to make sure that this 
property is returned to the veterans in the way that the 
original deed had intended.
    Mr. Benishek. Are there any specific provisions? I mean, I 
guess I am not familiar enough with the terms to identify how 
the land is going to be used for a veteran purpose.
    Mr. Celli. There is, Chairman, and I think it is 2B that 
specifically says that any use of this property be for the 
specific benefit of our veterans. The language that is in 
there, it is ironclad. It is concrete. And as long as they 
stick to not only the theme but the word of the document, then 
I think we will be going in the right direction.
    Mr. Benishek. All right. Thanks.
    I yield back. Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman.
    I guess I would just ask a general question from all of you 
in terms of what you might see, certainly in the draft plan 
that poses the biggest challenge for VA to implement the 
proposed plan if you have any observations to share.
    Mr. Kelley.
    Mr. Kelley. It is a big plan, so there are a lot of details 
that just need to be made sure that they are followed through 
on. I don't think there are any big road blocks in any of the 
ideas and any of the provisions that are in that. Again, it 
needs parity. It needs a clear focus on each one of those and 
ensure, like Mr. Celli said, that on the back end of that, that 
we don't lose sight of what that money and what those leases 
were meant for.
    Mr. Celli. Ranking Member, the plan clearly represents the 
spirit of the original agreement and the spirit of what the 
veteran service organizations were hoping for. What we are 
concerned about is, there is some discussion about some public 
land use, a dog park or something, and we just want to make 
sure that this land sticks to the exact language of the 
agreement that preserves this space for the sanctity of our 
veterans healing.
    Ms. Brownley. Thank you so much.
    And, Mr. Kelley, I understand your argument about this 
Section 2B3, but I also understand that this is, as Mr. Celli 
expressed, it is ironclad about how this property has to be 
veteran-centric and that is key not only for the homelessness 
issue, but other services provided to veterans in the area.
    And my veterans travel from Ventura County every single day 
to receive services there, so it is not just Los Angeles. It is 
really a regional issue.
    So I guess, you know, with respect to particularly UCLA, I 
don't know whether you have sat down to meet with them yet and 
if you haven't, if you would meet with them to see what they 
are at least proposing, you know, under this potentially new 
proposed plan and agreement.
    Mr. Kelley. I would be happy to sit with them. I have read 
the documents that they have submitted to the secretary. And I 
believe everything that they have said in those documents still 
fits under Section 2B2. So having a separate section for them 
just seems a little out of place.
    So I would be happy to sit down and talk with them, but, 
again, everything that I have read, everything I have looked at 
leads me to believe that they would qualify under the previous 
provision.
    Ms. Brownley. So in terms of looking at what UCLA has 
proposed to this, you don't oppose their proposal?
    Mr. Kelley. No, not at all.
    Ms. Brownley. It is just the language--
    Mr. Kelley. Yes.
    Ms. Brownley [continued]. --within the agreement you 
believe what they proposed would fit in well to another 
section--
    Mr. Kelley. Right.
    Ms. Brownley [continued]. --within the agreement?
    Mr. Kelley. And just to keep that focus on what those are, 
there are nine specific provisions that you have to meet, and 
to keep the focus on that instead of having some softening of 
those provisions for them or any other future contracts because 
it does set a precedent.
    Somebody else comes along and says, hey, we would like to 
do this, but we will make sure that we do a little extra. Okay. 
And then we just go down that road.
    So I believe that they fully fit into the first section of 
that, and that is where they belong and what they are proposing 
is absolutely accurate.
    Ms. Brownley. Thank you very much.
    I yield back.
    Mr. Benishek. Thank you.
    Mr. Coffman, do you have any questions?
    Mr. Coffman. No, Mr. Chairman.
    Mr. Benishek. All right. Thanks.
    Ms. Kuster.
    Ms. Kuster. Thank you for joining us today.
    And I don't mean to rock the boat, but we are all talking 
around something that I want to make sure I understand.
    There is a baseball stadium that UCLA uses on the property. 
Is that what we are talking about and how does that benefit the 
health care or the well-being of veterans?
    Mr. Kelley. So there is a larger agreement with UCLA. Part 
of that agreement is the use of about seven acres for their 
baseball stadium. In their proposal, they are going to have 
activities. They are going to do things for veterans in the 
community on that facility.
    So they are heading in the right direction long term. 
Again, just where it is placed in this language in the bill is 
what is important.
    Ms. Kuster. But you think that the baseball stadium will 
benefit the veterans or you think the promises that are being 
made--
    Mr. Kelley. I don't believe it currently is, but I believe 
under what they are proposing, it will, because they could have 
family days. They could have rec leagues that are used on that 
property. So those types of things would directly benefit 
veterans in that community and that does fit the spirit of what 
this is. And then the larger agreement that VA and UCLA has 
would be protected under that as well.
    Ms. Kuster. And tell me a little bit more about the larger 
agreement. That is where there is--
    Mr. Kelley. It is a learning hospital. The VA pays for the 
training of UCLA docs and there is research that goes on, 
research and development. And under the proposals, that would 
be expanded greatly and I think those are important provisions.
    Ms. Kuster. To benefit veterans?
    Mr. Kelley. Absolutely, yes.
    Ms. Kuster. Okay. All right. Well, I guess I just would say 
for the record on behalf of the taxpayers and the veterans that 
I agree with you that we need to be vigilant that these 
properties are used to benefit veterans.
    And I also just want to say for the record, I want to join 
my colleague and friend, Mike Coffman, in cosponsoring your 
bill. And thank you very much. My father and my father-in-law 
were proud veterans of World War II, but I think running a 
luxury hotel and spa in Paris in their honor is probably not 
the best use of our funds. So thank you very much.
    Thanks, Mr. Chair. I yield back.
    Mr. Benishek. Thanks, Ms. Kuster.
    Anyone have any further questions?
    Well, thank you, gentlemen, for being here this morning. I 
sure appreciate your testimony and your answers to our 
questions. So you are now excused.
    And I would like to welcome our third and final panel to 
the witness table. Joining us from the Department of Veterans 
Affairs is Ms. Stella Fiotes, Director of the Office of 
Construction and Facilities Management for the Office of 
Acquisition, Logistics, and Construction. She is accompanied by 
Mr. Vince Kane, a Special Assistant to the Secretary.
    Thank you both for being here, and, Ms. Fiotes, you are 
recognized for five minutes when you are ready.

                 STATEMENT OF STELLA S. FIOTES

    Ms. Fiotes. Good morning, Chairman Benishek, Ranking Member 
Brownley, and Members of the Subcommittee. Thank you for the 
invitation to present our views on several bills that would 
affect VA benefits, programs, and services.
    Seated with me is Vincent Kane. Mr. Kane is a Special 
Assistant to the Secretary.
    I would like to begin by thanking Representative Ted Lieu 
for introducing H.R. 3484 and for the support from other 
Members. The bill would authorize VA to enter into enhanced-use 
leases and other agreements for housing and services 
benefitting veterans and their families. VA firmly supports 
this bill as it will enhance our current efforts to revitalize 
the campus and help end homelessness in greater Los Angeles.
    This legislation helps us in three ways. First, it would 
allow VA to enter into agreements with housing providers, local 
governments, community partners, or nonprofits to provide 
housing and services for those veterans and their families that 
are homeless or at risk of homelessness.
    Second, it will allow VA to revitalize the campus into a 
rich and vibrant community that puts the needs of veterans 
first in a manner consistent with VA's ongoing efforts to 
complete a new master plan for the campus.
    And, third, it will ensure the campus honors the underlying 
deed that transferred the property to the Federal Government in 
1888 to be a safe, welcoming, and healing environment for 
veterans.
    We appreciate the Committee's support for this legislation 
and look forward to working closely with each of you on its 
passage and implementation.
    [The attachment appears in the Appendix]
    Ms. Fiotes. VA also supports our fiscal year 2016 
construction legislative proposal. This legislation would 
authorize eight major construction projects and 18 major lease 
projects for the VA.
    In addition, authorization of VA's construction bill would 
expand opportunities for VA to work with other Federal agencies 
and expand the capabilities of the department's enhanced-use 
lease program to allow VA to further repurpose vacant and 
underutilized properties reducing the financial burden to 
maintain.
    The department's main priority is to provide high-quality 
care to veterans in facilities that are procured legally, 
constructed soundly, and comply with Federal requirements for 
accessibility, safety, and security.
    If VA's budget request is authorized, points of service for 
VA health care would be created or expanded and specifically if 
authorized, the proposed 18 leases would provide over a million 
and a half square feet of lease space establishing new 
presences where VA wasn't before or upgrading existing leases.
    VA has taken the necessary steps to put in place sound 
construction management processes to ensure success in our 
major construction program and for future projects that VA will 
continue to manage. These improvements have and will ensure 
proper execution of our major construction program and provide 
the much needed access to health care for our Nation's 
veterans.
    We have also engaged with the U.S. Army Corps of Engineers 
to continue our longstanding working relationship and we 
anticipate a joint effort with them and potential other Federal 
entities on our super construction projects over $100 million 
that brings us in line with the Department of Veterans Affairs' 
Expiring Authorities Act of 2015 which was enacted on September 
30th.
    H.R. 3262 would require VA to convey six-tenths of an acre 
of real property and improvements at the VA Illiana Health Care 
System to the Danville Area Community College of Danville, 
Illinois. VA supports this legislation and this, in fact, would 
bring VA in line with reducing our ongoing infrastructure costs 
by decreasing our maintenance costs for this property.
    VA also expresses support for H.R. 4056 which conveys the 
real property known as the community living center located at 
the Lake Baldwin Veterans Affairs Outpatient Clinic in Orlando. 
This action is in alignment with the Lake Baldwin Campus 
repurpose plan and will permit a productive partnership between 
VA and the Florida Department of Veterans Affairs.
    We note in our testimony the need to address some 
operational and technical concerns which arise from the fact 
that the land transfer is in connection with an effort to 
establish a state veterans' home. We are glad to discuss these 
issues with the Committee.
    In 1991, Congress enacted legislation to transfer 
jurisdiction, custody, and control of Pershing Hall to VA. 
After several other pieces of legislation, Congress authorized 
VA the ability to out-lease the building for up to 99 years. 
And in 1998, VA executed a 99-year lease agreement with a 
developer which in turn made several improvements to the 
property.
    This bill would amend the Veterans Benefit Programs Act of 
1991 to authorize the Secretary of Veterans Affairs to sell 
Pershing Hall. VA has no objection to selling or disposing of 
Pershing Hall with accommodations for our veteran service 
organizations.
    We would also like to be able to transfer the sale proceeds 
for the fair market value of Pershing Hall in VA's capital 
accounts without further appropriation. This is a technical and 
implementation issue that we would be happy to work with this 
Committee to address.
    Lastly, VA was recently provided with H.R. 4129, the 
Jumpstart VA Construction Act. At this time, VA is unable to 
provide official views or estimates, but we appreciate the 
concept of exploring strategic public/private partnerships to 
allow VA to efficiently expand access to care and services.
    Mr. Chairman, thank you for the opportunity to provide VA's 
view on several important bills before this Committee today. My 
colleague and I would be pleased to answer any questions that 
you or other Members of the Committee may have.

    [The prepared statement of Stella S. Fiotes appears in the 
Appendix]

    Mr. Benishek. Thank you very much for your testimony.
    I am going to yield myself five minutes for questions. I am 
going to start with the issues that the service organization 
brought up, mainly the VFW thinks that the UCLA agreement meets 
the spirit of veteran support.
    Does the Brentwood School agreement meet that same spirit?
    Mr. Kane. So with respect to the leases on the campus, the 
legislation is very clear about what is veteran focused. We 
have been meeting with the existing lessees to clarify that 
definition and to give them opportunity to look at their 
practices and to submit comments into the master plan.
    What we plan to do at the end of the comment period is to 
review their remarks to see if it is consistent with the 
overall theme and focus of the master plan and to evaluate 
whether or not it meets that definition. If it does not meet 
the definition, we will be moving forward with exiting those 
lessees from the campus.
    Mr. Benishek. All right. I guess the other issue apparently 
is, is Brentwood Village parking as part of the--I mean, to me, 
that seems less veteran-centric.
    Mr. Kane. That is correct. That has been there for some 
time. However, the community has approached VA and have been 
working with the local, state and congressional authorities to 
talk about ways that they could be partnering with VA for 
employment opportunities in the Brentwood Village.
    Again, similar to what we did with every one, we instructed 
them to put their ideas and comments into the master plan. It 
will be looked at in the master plan as well as through 
separate processes where we are looking at all the leases to, 
one, make sure it is consistent with the master plan--
    Mr. Benishek. You are saying a lot of words, but it doesn't 
address the parking thing.
    Mr. Kane. So the parking, the proposal the community has 
sent into the master plan that we have looked at, one of 
thousand comments is to convert that to employment 
opportunities for veterans. We have not had time to study that 
in detail. We will be looking at that as part of our update to 
the master plan. But, again, if it is simply parking, it will 
not meet the criteria for veteran focus.
    Mr. Benishek. That is kind of what I wanted to hear.
    Why did it take so long to get the legislative proposal to 
us?
    Ms. Fiotes. I apologize for that. There is no excuse.
    Mr. Benishek. I am glad to hear that.
    Please elaborate on the provision in the legislative 
proposal that will expand the definition of medical facilities. 
How many more facilities would count as VA medical facilities 
under this proposal and tell me why the VA is constrained by 
the current definition?
    Ms. Fiotes. The expansion of the definition would allow us 
to enter into agreements with the Department of Defense for 
common use of joint facilities. And currently, there are 
limitations with that $10 million threshold on major 
construction that put us in the position where the current 
definition does not include shared facilities in that 
definition. We have run into issues where we cannot commingle 
funds with the Department of Defense, for example, in a shared 
facility because of that limitation.
    Mr. Benishek. All right. It seems like the enhanced-use 
lease authority that is outlined in the VA's legislative 
proposal is significantly broader than the enhanced lease 
authority that the VA is supporting for the West LA Campus.
    What is the difference? What is that about?
    Ms. Fiotes. I don't believe that is the case, Mr. Chairman. 
The intent is to actually mirror what is proposed in the West 
LA enhanced-use lease expanded authority.
    Mr. Benishek. All right. Well, we definitely have to 
follow-up on that because we didn't really have much 
opportunity to review the legislative proposal before the 
hearing.
    What measures will the VA use to make the determination 
that a proposed enhanced-use lease is not inconsistent with or 
will not adversely affect the mission of the department and 
what will be the parameters of the Office of Management and 
Budget's review of proposed use leases be?
    Ms. Fiotes. I am not sure that I can answer all that in 
quite enough detail at this point, but I will tell you that 
there will be specific criteria that will be worked out 
together to ensure that we follow them consistently across the 
entire portfolio of the leases. And I would be glad to follow-
up later with you.
    Mr. Benishek. I am just going to have one more quick 
question. The major construction project failures have received 
a lot of attention because of the Denver issue, but minor 
construction projects could be just as vulnerable to cost 
overruns.
    What are you changing at the VA to make sure that minor 
construction projects, and some of them are not so minor in my 
view, how are you changing things so those will be on time and 
on budget?
    Ms. Fiotes. That is an excellent point, Mr. Chairman. And, 
in fact, while my office is responsible for major construction, 
we have been asked by the deputy secretary to look at the 
overall construction program across the VA and ensure that best 
practices are, in fact, being applied not only to the major, 
but also to the minor program.
    We have learned a lot from our mistakes and our challenges 
in the major program. We want the opportunity to share those 
and implement those across the construction program.
    Mr. Benishek. Will you forward to the Committee then the 
actual proposal for change within the VA, how this is going to 
change the way you have been doing things to the way you are 
going to do things in the future?
    Ms. Fiotes. I will be glad to share with you the memo that 
Deputy Secretary Gibson put out regarding primarily the major 
construction program and then in oral discussions, we have been 
talking about expanding that to the minor. But we have not put 
that in a written policy.
    Mr. Benishek. I see. All right.
    Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman.
    Last week or two weeks ago, I had the VA come out to my 
district in Ventura County and make a presentation on the draft 
plan of the West LA facility to our veteran community in 
Ventura County. It was very, very helpful. I appreciate the VA 
coming out to do that.
    And I just sort of want to put a plug in, in some sense, 
because there were issues raised at that meeting for veterans 
like my veterans who travel to the West LA facility for 
services, you know, every single day. It is the only place 
where they are going to receive services or many of the 
services that they need. And things like parking was an issue, 
you know, not enough parking.
    And so I just want to put in a plug to say I think that we 
really need to, when we are talking about the facility being 
veteran-centric, and I believe that it should be, that we also 
need to be thinking about the veterans who have to travel to 
that facility and some of the accommodations they may need to 
receive similar services that our veterans in the immediate LA 
area, you know, have there. So I just want to put, you know, 
that plug in.
    And also as it relates to the UCLA that has been talked 
about, it is my understanding that in addition to the services 
that UCLA is providing now to veterans and there are many, 
there are a lot of new concepts that they have, I think, 
proposed that include things like trauma and addiction work, 
adaptive recreational activities, new medical fellowships, a 
legal clinic for veterans, and the list kind of goes on from 
there.
    But in my mind, there is a tremendous benefit and 
partnership particularly between UCLA and the VA. And there has 
been a long history and a long partnership there. And my son is 
currently a medical student at UCLA and has done work, you 
know, at the VA that has benefitted him and his education.
    And so, you know, I think that we have got to take and 
respect to the sort of holistic proposal, not just the baseball 
field, although veterans tell me all the time they love going 
to the baseball games there. And I think that facility can also 
be used for adaptive, you know, recreational activities for our 
veterans and so forth.
    So I just wanted to, you know, make that statement and be 
clear that I think the proposal, and if you would verify that 
at least, that that proposal is a more extensive one.
    Mr. Kane. Yes. And as the congressman indicated, it is not 
a carve-out to UCLA. It is a recognition that we have had a 70-
year academic affiliation with them. We share the same mission 
for community service, for teaching and education, training the 
next generation of medical professionals.
    But we have been clear and UCLA has been responsive in 
noting that to be veteran-centric, to be veteran focused, they 
need to do more not only at the stadium, but in the service 
area. And we have been in discussions with UCLA addressing 
issues related to women's health, addiction, mental health, 
trauma, traumatic brain injury, legal clinics, all of those 
things that you have mentioned.
    There has been ongoing and open dialogue with them about 
doing more for veterans from a direct service perspective to 
demonstrate their commitment to the veterans in the community.
    Ms. Brownley. Thank you so much.
    And then going back to my veterans in Ventura County, I see 
that Oxnard is a proposed lease for this year, and I am happy 
to see that. I cannot underscore more how desperately it is 
needed in Oxnard. The demand there is quite significant and, 
you know, I feel as though our veterans have been under-served 
now for years.
    We have an interim solution, but this is, you know, the 
long-term goal and particularly to have a facility that is VA 
run because, quite frankly, the contracts that we have had have 
just not worked very well.
    And there has just been a disconnect between the contractor 
working there and being able to answer and respond to veterans. 
So far, it has sort of been, well, you just need to call the 
VA. I can't answer your questions. I am a contractor. And it 
hasn't worked very well.
    But I am just curious to get a rough idea of if, you know, 
there is the passage of this bill, how long would you think it 
would be before a facility would open in Oxnard for veterans 
there?
    Ms. Fiotes. Congresswoman, typically we anticipate about a 
four-year delivery time if we are going to build a facility, 
have a built-to-suit facility leased for us. We have been 
working since the Choice Act leases to reduce that timeframe as 
much as possible. It takes us about a year to get the official 
competition out and sometimes a year to award and then two 
years to design and build the facility.
    We are working on the front end which is what we still 
control to reduce that to hopefully under two years before we 
can award the lease. So I would hope that we would be able to 
deliver it no later than four years, but my goal would be to 
deliver it much earlier than that.
    Mr. Kane. I would like to also just acknowledge your 
comments about parking and better accommodations on the campus 
for veterans and veterans' families traveling in. It is very 
much a part of the master plan. There is a recognition, that is 
signage, roads, parking, and accommodations for family members.
    Ms. Brownley. Yeah.
    Mr. Kane. A safe, warm, welcoming place for them to meet 
and relax while their loved one is getting care is something 
desperately needed and it is very much a part of the master 
plan.
    Ms. Brownley. Thank you, sir. I appreciate it.
    And I yield back.
    Mr. Benishek. Ms. Kuster.
    Ms. Kuster. Thank you, Mr. Chairman, and thank you for 
being with us.
    I want to follow-up on a couple of projects in my district 
in New Hampshire, the rural northern part of the district. So 
we opened a wonderful new CBOC in a town called Littleton, New 
Hampshire, very much appreciated.
    There was much fanfare announcing that two more CBOCs were 
going to be built. One was in Colebrook, New Hampshire and one 
is in Berlin, New Hampshire. And what has happened in the past 
year is that we seem to run into some lengthy delays. There is 
difficulty. I just heard on the news that they are using a van 
that is coming with a doctor but only a handful of veterans 
have even used it.
    I wanted to just, if you could take that back to your folks 
and maybe respond to my office directly as to what the status 
is of those two in Colebrook and Berlin, New Hampshire. And 
just generally, these are smaller projects, so I am very 
curious about your minor project leasing or building process.
    Are you trying to speed that up and what causes these types 
of lengthy delays that hinder the capacity to just provide care 
for veterans in a timely way within their community?
    Ms. Fiotes. Absolutely, Congresswoman. I will take that 
back and we will get a response to you. I don't have specific 
information about the two leases. As you mentioned, minor 
leases under the million dollar threshold have been 
historically managed and handled out of the regional 
contracting offices within the Veterans Health Administration.
    We are in the process of changing that and, in fact, 
consolidating the entire leasing program under my organization 
so that we have consistent policies, consistent standards, and 
hopefully more streamlined processes.
    Part of the delays I have to say start with the fact that 
as a Federal agency, we are bound by the competition 
requirements and preparing the competition, advertising, 
getting bid proposals, and evaluating those and sometimes 
dealing with protests takes up a fairly large amount of time.
    Historically, we have been not very good at establishing 
our requirements up front which would help the process. We have 
now moved to standardized clinics that we are using ever since 
the Choice Act leases so that we can have again more standard 
designs, quicker ability to hit the market with our 
advertisement, and then less design time to get from the award 
to the actual construction start.
    So we will be applying those not only to the majors, but 
hopefully in the very near future to some of the minor leases. 
But we will get back to you with information about the specific 
two leases.
    Ms. Kuster. Thank you very much.
    And then my other question is around construction, and this 
may be for a separate hearing, but I have been hearing about 
lengthy delays in payment for construction. And I don't know if 
you are aware of that or if that is something that I should 
take up with someone else.
    Ms. Fiotes. We would have to know more specifics about the 
types of projects and which projects. Traditionally, there are 
some complaints from contractors where claims are involved and 
where we are not able to resolve change orders, but I would 
have to know the specifics of the project to tell you. But feel 
free to share the information with us, and I will find out who 
the appropriate office is and we will get you an answer.
    Ms. Kuster. Great. Thank you very much.
    Thank you. I yield back.
    Mr. Benishek. Thanks, Ms. Kuster.
    I just want to follow-up now that my colleagues have had a 
chance to ask their questions on your answer about the minor 
construction projects there.
    You know, it is called a minor construction project, but it 
is my understanding it is like a hundred million dollar level. 
So as I said before, it is pretty major.
    It seems to me, that you would have some written plan to be 
sure that that all works more efficiently than it has in the 
past, you know, other than what you mentioned, you have had 
discussions. And it seems to me that there should be a, you 
know, uniform plan for this construction that is being 
monitored closely and stays within budget.
    Are you in the process of developing that or is there just 
going to be continued oral discussions, or can you go on a 
little bit more about that?
    Ms. Fiotes. Absolutely, Mr. Chairman. The minor 
construction threshold is $10 million by law. So when we talk 
about minor construction, we are talking about projects under 
$10 million that are executed locally by the medical centers, 
you know, with contracting staff and engineering staff at the 
local facilities.
    The hundred million dollar threshold that you mention was 
recently applied to the projects that we will be required to 
engage other Federal entities to help us with the construction 
such as the Corps of Engineers. But $10 million is actually the 
threshold for minor construction. So my office does every 
construction project over $10 million, not over a hundred 
million.
    Mr. Benishek. The minor projects are you saying are managed 
locally by the local medical center or the--
    Ms. Fiotes. They are managed totally by the local medical 
center and contracting staff, yes.
    Mr. Benishek. All right. All right. Thank you.
    Any other questions?
    Well, you are excused then.
    Ms. Fiotes. Thank you.
    Mr. Benishek. Thank you very much to all of our witnesses 
for being here today.
    I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and include 
extraneous material. And without objection, that is ordered.
    The hearing is now adjourned. Thanks.

    [Whereupon at 11:20 a.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

                   Prepared Statement of John Shimkus
    Chairman Miller and Chairman Benishek, Ranking Member Brown and 
Ranking Member Brownley, thank you for the opportunity to come before 
the Committee to discuss this simple, yet important bill and for taking 
the time today to consider it.
    In my district, Danville, Illinois is a small town by most 
standards, with a rich history. It was the home of Dick Van Dyke, who 
grew up in Danville, and Speaker Joe Cannon, the namesake of the 
building we're in today. Two institutions Danville prides itself on 
today are the VA Illiana Health Care System and Danville Area Community 
College (DACC).
    The relationship between the VA and DACC is an excellent example of 
two institutions working together to serve our veterans. The location 
of a VA hospital adjacent to the community college campus provides our 
veterans returning home a one-stop opportunity for medical treatment 
and help with benefits, while as well as the educational and training 
experiences that help them transition into a career in civilian life.
    My bill, H.R. 3262, is simple. It allows the VA to transfer 0.6 
acres of land from its property in Danville, in exchange for 1.06 acres 
of land currently owned by Danville Area Community College (DACC).
    Swapping the land provides benefits to both the VA and the local 
community. The Danville VA has looked into the possibility of building 
a fence along its perimeter, but as the property lines are currently 
drawn, that boundary is not a straight line. Swapping these two small 
parcels will fix that problem, cutting construction costs should the VA 
choose that option.
    The VA's current property that would be transferred includes a 
Carnegie Library that is more than a century old. The building has 
become so deteriorated and expensive to maintain that the VA has 
stopped using it, and it now sits vacant. DACC and the local community, 
on the other hand, see great potential for the library. With the 
generous help of private donors, DACC plans to transform the old 
building into an arts center. By swapping these parcels of land, we can 
relieve the VA of the burden of maintaining an old building, while 
providing the community with a historically significant location for a 
cultural attraction.
    While small in terms of acreage, this swap is big in terms of 
benefits for the VA, Danville, and my constituents. I thank the 
committee for this opportunity and their consideration and look forward 
to working with you to move this bill forward.

                                 <F-dash>
                     Prepared Statement of Ted Lieu
    Chairman Benishek, Ranking Member Brownley, and members of the 
Committee on Veterans' Affairs, I want to thank you for inviting me to 
testify at today's legislative hearing.
    I am pleased to join you to discuss H.R. 3484, the Los Angeles 
Homeless Veterans Leasing Act of 2015 that I authored. This legislation 
authorizes the Department of Veterans Affairs (VA) to enter into 
Enhanced Use Leases at the West Los Angeles Campus.
    As a Veteran myself, it is a privilege to represent the West Los 
Angeles VA Medical Center (West LA VA), the largest VA Medical Center 
in the nation. Our VA hospital does a tremendous amount of good every 
day for our Veterans. However, Los Angeles County is also ground zero 
for homeless Veterans, with thousands sleeping on the streets each 
night. The numbers are daunting and the urgency to provide permanent 
homes to these Veterans must be a priority.
    The West LA VA has a complicated history. It has not always served 
our Veterans to the standard that they deserve and the American people 
expect. For many years the campus was mismanaged and inappropriate uses 
were permitted to operate on the property.
    I am pleased to report, however, that a significant shift has 
occurred this year among all stakeholders, including the VA, Veteran 
Service Organizations, elected officials, the community, and our 
Veterans. We have come together on the heels of a landmark legal 
settlement of a lingering lawsuit brought by the ACLU on behalf of 
homeless Veterans. The terms of the settlement call for the development 
of a Master Plan for the West LA VA to guide its future service to our 
Veterans. In addition, a comprehensive Homeless Plan has been developed 
for the region and implementation has already begun.
    A critical part of the Master Plan and Homeless Plan includes the 
construction of Permanent Supportive Housing. As the Subcommittee 
knows, ``Housing First'' is the evidence-based model for providing 
stable permanent housing to Veterans followed by intense services. 
Unfortunately, the West LA VA does not currently offer any of these 
desperately-needed Permanent Supportive Housing units.
    The best vehicle for the development of Permanent Supportive 
Housing is a public-private partnership using an Enhanced Use Lease. 
These leases allows for leasing terms of up to 75 years, enabling 
affordable housing developers to gain financing and accrue tax credits 
while constructing housing for our Veterans.
    Every other VA facility across the nation has the authority to 
enter into Enhanced Use Leases except for West LA. The prohibition on 
Enhanced Use Leases dates back to 2008 when the West LA VA was not 
being managed responsibly. United States Senator Dianne Feinstein and 
Congressman Henry Waxman drafted language that was signed into law 
which prohibits Enhanced Use Leases. Their concern at the time was that 
the property would be commercialized through the use of these leases. 
But today the climate is different and the Master Plan and Homeless 
Plan will not succeed without this important leasing tool.
    The public comment period for the Draft Master Plan closed 
yesterday. Secretary McDonald will now review the comments and update 
the Draft. The current Plan calls for 150 units of Permanent Supportive 
Housing followed by 700 to 900 units depending upon need.
    My bill, H.R. 3484, restores the authority to the VA to enter into 
Enhanced Use Leases solely for the purpose of developing supportive 
housing for homeless and at-risk Veterans. I am pleased to report 
Senator Feinstein has introduced S. 2013 in the Senate, the companion 
bill to H.R. 3484. It is my hope the bills will pass through committee 
and go to the floors of our respective chambers very soon. Without 
Enhanced Use Leases, our ability to serve vulnerable veterans on this 
property will be stalled.
    An additional point I would like to share with the Committee 
involves a subway that is being built in Los Angeles County known as 
the Purple Line. Its alignment will pass directly next to the West LA 
VA. Over the last few years, the VA and our local transit authority, 
Metro, have been in discussions about locating a stop on the West LA 
VA. Veterans, their families, VA staff and the public would 
significantly benefit by gaining access to public transit on the VA 
grounds. This legislation is not intended in any way to impede a Metro 
stop on the West LA VA campus. If necessary, I am open to amending the 
bill to clarify that a subway stop is consistent with the Draft Master 
Plan and permissible under the bill.
    Finally, I am delighted to let the Subcommittee know that this 
legislation has gained support on the ground from cities to homeowners' 
groups to Veterans Service Organizations. I believe their formal 
support is recognition that our homeless Veterans deserve Permanent 
Supportive Housing and the West LA VA is a proper and appropriate 
campus on which to build it.
    I would like to enter letters and resolutions in support of H.R. 
3484 into the record from the following institutions:

    <bullet>  Brentwood Glen Association
    <bullet>  City of Agoura Hills
    <bullet>  City of Los Angeles
    <bullet>  County of Los Angeles
    <bullet>  Holmby Westwood Property Owners Association
    <bullet>  Jewish War Veterans Post 118
    <bullet>  Los Angeles Neighborhood Council Coalition
    <bullet>  Pacific Palisades Democratic Club
    <bullet>  Pacific Palisades Task Force on Homelessness
    <bullet>  South Brentwood Residents Association
    <bullet>  University Synagogue
    <bullet>  Westwood Homeowners Association
    <bullet>  Westwood Neighborhood Council

    I would like to thank the Subcommittee again for allowing me to 
advocate for this pending legislation.

                                 <F-dash>
                   Prepared Statement of John L. Mica
    H.R. 4056, to authorize VA to convey to the Florida Department of 
Veterans Affairs all right, title, and interest of the United States to 
the property known as ``The Community Living Center'' at the Lake 
Baldwin VA Clinic, Orlando, Florida.

    Thank you Mr. Chairman and allow me to commend you for your 
leadership and tireless support of our nation's veterans.
    Chairman Benishek, Ranking Member Brownley and distinguished 
Members of the Subcommittee, I come before you today in support of HR 
4056, to authorize VA to convey to the Florida Department of Veterans 
Affairs all right, title, and interest of the United States to the 
property known as ``The Community Living Center'' at the Lake Baldwin 
VA Clinic, Orlando, Florida. Mr. Chairman, this Bill will transfer the 
nursing home facility on the campus of the Lake Baldwin VA Clinic to 
the State of Florida Department of Veterans' Affairs.
    Since its opening in 1998, the Lake Baldwin VA Clinic has provided 
vital medical resources for Central Florida's Veterans population. With 
the opening of the Lake Nona VA Hospital complex, a new 120 bed 
Community Living Center (CLC) has been opened on that campus. In 2012, 
in anticipation of the vacating of the Lake Baldwin CLC, I wrote then 
VA Secretary Eric Shinsecki requesting that the re-use of that facility 
be considered and that we maintain the nursing home (CLC), which 
currently is being vacated. I would like to include for the record my 
correspondence with the VA regarding this matter. It is important to 
note that both Federal VA representatives and Florida VA officials have 
met and agreed to the re-use of the facility as a CLC and hope to do so 
in an expedited manner. We have reached an agreement with the Florida 
Department of Veterans Affairs to have them operate the facility, and 
both federal and state agencies support this arrangement.
    Besides vastly expediting the restart operations of this facility 
with this transfer, a significant cost savings will be realized to the 
federal taxpayer. The State of Florida Department of Veterans Affairs 
has a proven track record of efficiency and service and will provide 
our region's veterans with the care they so richly deserve. To make 
this a reality and to make the project viable, included in the Bill is 
a waiver of the ``small home'' design requirement outlined by the VA. 
This waiver will allow for the current 120-bed unit to remain a double-
occupancy unit as currently constructed.
    Again, let me thank Chairman Benishek, Ranking Member Brownley and 
the distinguished Subcommittee Members for your support of this 
legislation. H.R. 4056 will help fulfill the promises we have all made 
to our men and women in uniform as we continue to provide the health 
care and services owed to them now and in the future.

    July 7, 2014

    The Honorable Sloan Gibson
    Acting Secretary
    U.S. Department of Veterans Affairs
    810 Vermont Ave., N.W.
    Washington, DC 20420

    Dear Secretary Gibson:

    I wanted to follow up on our recent conversation relating to the 
Lake Baldwin VA Clinic and medical complex at Baldwin Park, in my 
District.
    Most importantly, I appreciate your commitment to making a decision 
regarding the currently vacant 120-bed nursing facility and 60-bed 
domiciliary and the future operation of the clinic at that site. Again, 
it is my understanding that you have committed to me to making a 
decision on the fate of the Lake Baldwin VA medical clinic and the 
currently vacant beds' future within 60 days. Furthermore, I have 
followed up with VISN 8 Director, Joleen Clark, who is your designated 
contact for me regarding this matter. In a conversation with her, she 
has confirmed to me that she will be convening appropriate meetings to 
resolve this issue.
    I was most encouraged by our conversation, as I have had a request 
into the VA for two years to resolve this matter. I am particularly 
impressed by your statement, ``the last thing I want to do right now is 
exit a major facility''; as well as your commitment to provide me with 
a plan for the future use of the Lake Baldwin VA clinic within 60 days. 
Please know that I will work with you to ensure that our veterans 
receive the best possible care.
    Once again, I would like to strongly encourage that the Lake 
Baldwin VA facility's resources remain available to provide medical 
care to our veterans. I know that VA's recent assessment confirms that 
Florida's veteran population is growing faster than any other state. 
Currently, the new domiciliary and nursing beds at Lake Nona are 
already at capacity. Also, the VA itself has publicly stated the need 
for double the amount of space to properly care for the region's 
veterans than is being provided at the new Lake Nona VA medical 
complex.
    I appreciate your commitment to resolve this important matter and 
am confident that by working together we can keep this facility open to 
meet the current and future medical requirements of our veterans.
    With my regards and best wishes, I remain

    Sincerely,

    John L. Mica
    Member of Congress

      cc: VISN 8 Network Director, Joleen Clark
      7th Congressional District Veterans Advisory Task Force
      7th Congressional District Community Leaders

    April 9, 2014

    The Honorable Eric Shinseki
    Secretary
    U.S. Department of Veterans Affairs
    810 Vermont Ave. N.W.
    Washington, DC 20420

    Dear Secretary Shinseki:

    This year, as we approach the completion of construction of the new 
veterans' hospital and medical complex at Lake Nona, we would like to 
request that you consider keeping the existing clinic and medical 
facilities at Baldwin Park in service to our veterans. This complex is 
a valuable federal asset that must not sit idle once the new medical 
center opens.
    With an increasing veteran population that is already the second 
largest in the nation, including those service men and women now 
returning from overseas conflicts, it is important that we plan now for 
their future medical care.
    In the past, we have encouraged you to consider keeping this 
medical care facility open. We are now asking that you act soon to 
ensure that the VA will preserve and utilize this much needed VA 
property as Florida's veteran population continues to expand.
    The recently opened Lake Nona veterans' 120-bed nursing facility 
and 60 bed domiciliary care unit are already at capacity and the demand 
for VA services will continue to grow in the Sunshine State.
    These men and women who have faithfully served our nation deserve 
the very best medical care and the taxpayers valuable assets must not 
sit idle.
    We thank you for your consideration of this request.

    Sincerely,

    ------------------------/s/------------------------------
    Member of Congress

    ------------------------/s/------------------------------
    Member of Congress

    ------------------------/s/------------------------------
    Member of Congress

    ------------------------/s/------------------------------
    Member of Congress

    November 20, 2015

    The Honorable Robert A. MacDonald
    Secretary
    U.S. Department of Veterans Affairs
    810 Vermont Ave., NW
    Washington, D.C. 20420

    Secretary MacDonald,

    Thank you for your assistance in helping to keep the clinic and 
pharmacy at the Lake Baldwin Clinic operational. While this will 
provide a significant service to Central Florida veterans, I would like 
to request your aid in expediting the reuse of the additional three 
floors of the former Naval Hospital building at the Lake Baldwin 
complex. It is my understanding that the current plan for the 2nd floor 
are tentatively designated to facilitate outpatient surgical services. 
I have also been informed that the top two floors may be made available 
to provide mental health and Post Traumatic Stress Syndrome (PTSD) 
counseling and treatment as well as other special medical services that 
may be needed. It is important that the Veterans Administration 
finalize plans for reuse of that facility as soon as possible.
    I solicit your cooperation in helping determine the final use of 
the remaining space in that facility. Moving forward with a firm plan 
that can be supported by Congress as soon as possible will expedite 
reuse of valuable VA asset that otherwise would remain vacant.
    Thank you again for your assistance in making the Lake Nona 
Hospital a reality and for your continuing commitment to our nation's 
veterans. Again, I request your attention to helping us finalize the 
reuse of the Lake Baldwin VA Complex. Please do not hesitate to contact 
me or my Veterans Affairs Legislative Assistant, Kevan Stone at (202) 
225-4035.

    Respectfully,

    John L. Mica
    Member of Congress

                                 <F-dash>
                   Prepared Statement of Mike Coffman
    Thank you Chairman Benishek for holding this legislative hearing 
and including my legislation that would authorize the Department of 
Veterans Affairs to sell Pershing Hall, a five-star boutique 24 room 
hotel, restaurant, and club in the heart of Paris, France.
    What is today known as Pershing Hall was purchased by the American 
Legion in 1928 to serve as a memorial for Gen. John Pershing and the 
soldiers who fought in World War I. The United States Government 
acquired the property in the 1930's, and after a long period of 
neglect, VA obtained jurisdiction and control over Pershing Hall in 
1991. Later in 1998, VA signed a 99-year enhanced use lease to a French 
firm allowing it to invest millions of dollars to renovate and 
redevelop the property as a hotel.
    Today, Pershing Hall is popular in Paris for its open-sky 
restaurant and a vertical garden more than 100 feet high. My colleagues 
on the dais have been distributed several photos of Pershing Hall as it 
exists today.
    In short, my bill provides VA the authority to sell Pershing Hall, 
and it requires an independent real estate assessment of the property 
prior to any sale to ensure taxpayers receive fair market value. 
Additionally, VA would be required to ensure that any personal property 
belonging to American Legion, such as historical artifacts and art 
work, be returned when the facility is sold. The proceeds from the 
sale, and the corpus of VA's Pershing Hall Revolving Fund, would be 
deposited into VA's Major Construction account for use on construction 
and renovation projects in the United States.
    My bill is not the first proposal to sell Pershing Hall. In 1993, 
Senator Jay Rockefeller, then Chairman of the Senate Veterans' Affairs 
Committee, introduced legislation which would have authorized the sale 
of the property. At that time, VA supported the provision and testified 
that the authority would allow the Secretary more options to consider 
in determining the best interests of the United States Government.
    One pertinent portion of the 1993 committee report still rings true 
today: ``Managing property in Europe is a very unusual activity for VA. 
The agency, therefore, is not set up to perform this activity in a 
cost-effective manner.The only incentive to lease the property would 
arise from the need to safeguard the building as a memorial, but this 
objective could be accomplished through restrictive covenants if the 
property were sold.''
    Aside from the infusion of capital into VA's construction account, 
authorizing the sale of Pershing Hall also puts two broader VA reform 
initiatives into focus.
    First, managing property leases is not a core-competency of the 
Department of Veterans Affairs. The Oversight and Investigations 
Subcommittee held a hearing earlier this year examining VA's wasteful 
land-management practices after the Government Accountability Office 
identified significant problems with VA land-use agreements. 
Specifically, GAO found problems with unenforced payment or other 
agreement terms, expired agreements, and instances where land-use 
agreements did not exist. As this Committee deliberates how best to 
refocus VA towards its core-competencies, I believe helping VA get out 
of the French real-estate market is a safe bet.
    Finally, VA has consistently asked Congress to grant it legislative 
flexibility to dispose of its excess infrastructure, most recently in 
its November Plan to Consolidate Community Care Programs. It seems odd 
that VA should consider the sale of domestic VA property while the sale 
of a hotel in Paris is off-limits.
    Thank you again to Chairman Benishek for allowing testimony and 
discussion on Pershing Hall, and I urge all of my colleagues on the 
Committee today to join me in this effort.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                Prepared Statement of Raymond C. Kelley

    WITH RESPECT TO: H.R. 3262, H.R. 3484, H.R. 4056 and DRAFT 
LEGISLATION

    Chairman Benishek, Ranking Member Brownley and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I want to thank 
you for the opportunity to present the VFW's views on legislation 
pending before this Subcommittee.

    H.R. 3262, a bill to provide for the conveyance of land of the 
Illiana Health Care System

    H.R. 3262 authorizes the Department of Veterans Affairs (VA) to 
convey approximately .6 acres of land, included on which is building 
number 48, to the Danville Area Community College. In exchange, 
Danville Community College will convey approximately 1.06 acres of 
land. Included on this property stands a gazebo. These properties are 
adjacent to each other and authorizing the conveyance will allow the 
new property line to run in a straight line.
    This conveyance will benefit both the VA and the Community College. 
VA has plans to place a fence around its property and it will save the 
VA money by making the property line straight. Building number 48 is 
currently unutilized, and by conveying this property, VA will save 
funds that would otherwise be obligated for maintenance of the 
building. The Community College wants building number 48 so it can be 
refurbished and used as an art studio.
    This conveyance makes sense to the VFW. It will relieve the VA of a 
building they no longer use, saving them money, and the college gains a 
building they can use for its students. The VFW supports H.R. 3262.

    H.R. 3484, the ``Los Angeles Homeless Veterans Leasing Act of 
2015''

    The West LA campus was deeded through a will to the federal 
government with the explicit intent for the property to be used to 
assist veterans. Over time, VA lost sight of that intent and leased out 
parts of this property - which is over 300 acres - to private entities 
and has made little to no repairs or improvements for the veterans it 
was intended for. This bill will realign the property with the original 
intent of the family who deeded the property in 1888.
    The VFW agrees in principal with this legislation because it 
returns the property to its rightful owners, the veterans of West LA. 
The VFW has concerns, though, with Section 2(b)3. This section of the 
bill appears to provide a specific carve-out for one or more of the 
current leases VA has entered into that do not conform to existing laws 
that govern Enhanced Use-Leases, nor follow the future leasing process 
laid out in this legislation. There should be no special treatment or 
consideration for any current leases that cannot fulfill the 
requirements of Section 2(b)2 of this legislation.
    The VFW supports the intent of H.R. 3484, but would ask that 
Section 2(b)3 be removed so all leases meet the requirement of Section 
2(b)2 of this bill.

    H.R. 4056, a bill to provide for the conveyance of land at the Lake 
Baldwin Veterans Affairs Outpatient Clinic, Orlando, Florida

    H.R. 4056 will authorize the conveyance of the Community Living 
Center (CLC) at the Lake Baldwin Veterans Affairs Outpatient Clinic to 
the Florida Department of Veterans Affairs. The 60 bed CLC described in 
this legislation is currently being used as transitional storage while 
VA moves to its new facility. Currently, the VA does not have plans to 
reopen the CLC, but by conveying this building to the Florida 
Department of Veterans Affairs the facility will be able to reopen 
quickly to serve the veterans in the Lake Baldwin area by the Florida 
Department of VA.
    The VFW supports this legislation.

    Draft Legislation to amend the Veterans' Benefit Program 
Improvement Act of 1991 to authorize the Secretary of Veterans Affairs 
to sell Pershing Hall

    The Department of Veterans Affairs has managed Pershing Hall, which 
is now owned by VA and is leased as a hotel in Paris, France. The 
current lease is set to expire in 2097. The VFW believes the VA should 
not be in the hotel business, but disposal of the hotel should be a 
business decision, not just an effort to no longer own the building. 
The VFW is glad to see that the draft legislation contains language 
stating the property be sold at the fair market value determined by an 
independent assessment. The VFW would, however, recommend this 
Committee consider amending this draft legislation to include language 
that would call for a prospectus that will outline the costs, if any, 
of breaching the lease agreement and the loss of annual revenue that 
the current lease provides. With this financial data, VA and this 
Committee can more clearly see the financial positives and negatives of 
selling the property.

    VA's legislative proposal regarding fiscal year 2016 construction 
projects

    The VFW supports VA's legislative proposal that will allow VA to 
plan, design, construct, or lease joint VA/DoD shared medical 
facilities. There are already current sharing agreements between VA and 
DoD that have allowed medical services to be provided closer to where 
veterans and military personnel are located. There are also 11 joint 
ventures that have been viewed very positively by both communities. 
This authority makes sense and is aligned with the Independent Budget's 
framework that will allow VA to better partner with other public 
agencies to better provide veterans with timely access to health care.
    The VFW supports this legislative proposal.
    Mr. Chairman, this concludes my testimony. I will be happy to 
answer any questions you or the Subcommittee members may have.

 Information Required by Rule XI2(g)(4) of the House of Representatives

    Pursuant to Rule XI2(g)(4) of the House of Representatives, the VFW 
has not received any federal grants in Fiscal Year 2015, nor has it 
received any federal grants in the two previous Fiscal Years.
    The VFW has not received payments or contracts from any foreign 
governments in the current year or preceding two calendar years.

                                 <F-dash>
                   Prepared Statement of Howard Trace
    Chairman Benishek, Ranking Member Brownley, and distinguished 
Members of the Subcommittee, on behalf of our National Commander, Dale 
Barnett, and the over 2 million members of The American Legion, we 
thank you for this opportunity to testify regarding The American 
Legion's positions on the following pending legislation.

      H.R. 3484: Los Angeles Homeless Veterans Leasing Act of 2015

    To authorize the Secretary of Veterans Affairs to enter into 
certain leases at the Department of Veterans Affairs West Los Angeles 
Campus in Los Angeles, California, and for other purposes.

    This bill would allow veterans who are currently living on the 
streets to relocate to a more secure space on the campus of the West 
Los Angeles Healthcare System for the purpose of receiving housing, 
health care, education, family support, vocational training, and other 
needed services.
    For nearly 80 years, the VA West Los Angeles Campus has been 
providing disabled veterans a place to live and receive needed 
services. For over 35 years, The American Legion has been actively 
protesting the Department of Veterans Affairs misuse of the property. 
Since that time the VA has been leasing the land to private businesses 
in the area directly contrary to the explicitly stated original intent 
when the land was donated by Senator John P. Jones and a prominent Los 
Angeles family intending to serve the homeless veteran community in Los 
Angeles. \1\
---------------------------------------------------------------------------
    \1\ HVAC O&I Hearing: An Examination of Waste and Abuse Associated 
with VA's Management of Land-Use Agreements: Feb 2015
---------------------------------------------------------------------------
    While The American Legion supports H.R. 3484, we want to ensure 
that the revenues generated by these leases are benefitting the veteran 
community, as well as enhancing the West Los Angeles VA facility 
itself. We also want those revenues well documented and tracked and 
continue to urge VA to report what had happened to the original funds 
as The American Legion asked earlier this year. VA has continued to 
fail to provide answers regarding accounting of funds collected from 
commercial tenants of the West Los Angeles VA facility when the 
organization violated land-use agreements. To date, the money collected 
in exchange for use of campus assets has not been accounted for.
    The American Legion opposes any Enhanced-Used-Lease that does not 
specifically provide any obvious and permanent benefits, resources or 
services to the veterans' community. \2\ This legislation can provide 
tangible benefits to the veterans in the West Los Angeles area, but 
there must be a complete and transparent accounting of the activities 
on the property, past and present, to restore trust in the veterans' 
community.
---------------------------------------------------------------------------
    \2\ Resolution No. 154: Department of Veterans Affairs Enhanced-
Used-Leasing: Aug 2014

---------------------------------------------------------------------------
    The American Legion supports H.R. 3484

               H. R. 4129: Jumpstart VA Construction Act

    To direct the Secretary of Veterans Affairs to carry out a program 
under which the Secretary enters into partnership agreements with non-
Federal entities for the construction of major construction projects 
authorized by law, and for other purposes.

    This legislation aims to help manage the task of addressing VA's 
building infrastructure problems. Despite voiced concerns from The 
American Legion over many years, construction budgets have often been 
unable to keep up with the demands of modernizing VA's buildings. As 
the legislation notes, VA buildings have an average age of 60 years, 
and some estimates place the costs to modernizing all of these 
facilities at over $55-65 billion. Furthermore, VA has struggled with 
the management of major construction projects, including major projects 
over budget and overdue in recent years in Florida, Nevada, Colorado 
and Louisiana.
    This legislation would enable VA to enter into partnerships for 
major construction projects with non-Federal entities to share the 
management and financial burdens and, it is hoped, improve the 
construction process by leveraging the partnerships to ensure better 
management.
    The American Legion believes strongly in improving VA's 
construction programs and specifically encourages VA ``to consider all 
available options, both within the agency and externally.to ensure 
major construction programs are completed on time and within budget.'' 
\3\
---------------------------------------------------------------------------
    \3\ Resolution No. 24: Department of Veterans Affairs Construction 
Programs
---------------------------------------------------------------------------
    Updating VA's major medical centers will require better management 
and better results than what has been seen in recent years. This 
legislation hopefully represents a step in that direction.

    The American Legion supports H.R. 4129

                              Draft Bill:
    To amend the Veterans' Benefits Programs Improvement Act of 1991 to 
authorize the sale of Pershing Hall, and for other purposes

    Nearly 100 years ago, members of the Allied Expeditionary Force in 
World War I came together to, among reason reasons ``preserve the 
memories and incidents of our associations [in] the Great War[s];'' and 
in 2015 approaching the 2019 anniversary of our founding, The American 
Legion is still dedicated to that mission. Part and parcel of the 
service the members of The American Legion devote to this country is to 
ensure the service and sacrifice of America's military is not 
forgotten.
    The American Legion fought for the dedication of a memorial 
building in Paris, France to recognize the service and sacrifices of 
the members of the Allied Expeditionary Forces and General of the 
Armies John J. Pershing in 1927. The memorial building was a townhouse 
in the heart of Paris that would become known as Pershing Hall. This 
memorial was authorized by resolution passed in the 1927 national 
convention. Eight years later, in 1935, Congress authorized funds to 
perpetuate the memorial and transfer the building to the United States 
Government. \4\ In 1991, the building was transferred to the Department 
of Veterans Affairs (VA). \5\
---------------------------------------------------------------------------
    \4\ 38 USC Sec.  2400 (a) - (e)
    \5\ Pub. L. 102-86, title IV, Sec.  403, Aug. 14, 1991, 105 Stat. 
422 , as amended by Pub. L. 103-79, Sec.  4, Aug. 13, 1993, 107 Stat. 
772 ; Pub. L. 103-446, title XII, Sec.  1202(c), Nov. 2, 1994, 108 
Stat. 4689 ; Pub. L. 107-217, Sec.  3(o), Aug. 21, 2002, 116 Stat. 1303 
; Pub. L. 107-330, title III, Sec.  308(i), Dec. 6, 2002, 116 Stat. 
2829
---------------------------------------------------------------------------
    Through all these actions it was the hope and wish of The American 
Legion that Pershing Hall retain its original purpose, as a memorial 
and focal point to honor the memories and sacrifices of the men who had 
fought in World War I.
    Currently, the Pershing Hall building, in the prime Paris 
neighborhood of the Champs Elysees, contains a luxury hotel and spa, 
where guests can stay for upwards of $450-900 a night. The focus and 
purpose as a place of remembrance seems gone by the wayside. When The 
American Legion asked the government to pay off and assume control of 
the building it was never imagined that the building would be used for 
any purpose other than as a memorial and space in Paris for those who 
had served in the first world war and subsequent wars.
    This legislation, proposed by Representative Coffman, would 
authorize VA to divest themselves of the property and transfer the 
monies resulting from the sale into their construction funds, badly 
needed to help VA deal with their aging infrastructure. The legislation 
would also provide for the transfer of the artifacts and items 
associated with the building to be transferred to the original owners 
for preservation.
    The preservation of these artifacts and the history they represent 
is a major concern of The American Legion. The building and material 
deserve to be kept together for their original purpose, to honor and 
remember General Pershing and those who fought in World War I. The 
American Legion wants to work with VA to ``establish permanent American 
Legion custodianship of the Pershing Hall art, artifacts, furnishings, 
memorabilia and other items so that they can be interpreted for public 
display, and protected from damage or disappearance.'' \6\
---------------------------------------------------------------------------
    \6\ Resolution No. 24: Pershing Hall Artifacts and Memorabilia - 
OCT 2013
---------------------------------------------------------------------------
    This would require several steps. To begin with, all of the 
materials would need to be reassembled. The VA provided The American 
Legion with a 1991 inventory \7\ however it is unclear whether this 
even represents the complete collection. At the very least, this 
includes artifacts and items scattered over several continents 
including material on display or being stored in:
---------------------------------------------------------------------------
    \7\ Appendix A

    <bullet>  Pershing Hall, Paris, France
    <bullet>  Compeigne, France
    <bullet>  VA Central Office, Washington DC
    <bullet>  James H. Quillen VA Medical Center, Mountain Home, TN
    <bullet>  VA New York Regional Office

    These represent the collections we are sure of at this time, but 
there may be more. All of these historical artifacts would need to be 
collected, collated, appraised and prepared and preserved. There is a 
Pershing Hall Revolving Fund of investments dedicated to providing for 
the needs of Pershing Hall with VA authorized to utilize the funds 
under certain prescribed circumstances. \8\ The American Legion 
recognizes that with the sale of Pershing Hall this fund and the monies 
contained therein will transfer to the construction accounts as 
dictated in the legislation, however it is wholly appropriate that some 
portion of such funds as needed to provide for the preservation and 
proper treatment of the artifacts and materials should be allotted to 
the transfer process. These monies were initially intended to provide 
for this preservation of history, and while they have been doled out 
for many other purposes since that time, that does not remove the 
original intent. If there are costs associated with transferring, 
shipping, storing, appraising and conserving the artifacts through the 
transfer process, these costs should be borne by the Revolving Fund.
---------------------------------------------------------------------------
    \8\ 36 USC Ch. 22 Sec.  493 (d)
---------------------------------------------------------------------------
    The extensive list of artifacts and materials associated with 
Pershing Hall represent critical insight into American struggle and 
sacrifice in the first world war. It is a sacred duty to preserve and 
protect this history.
    The American Legion has been very grateful to Representative 
Coffman for his continued communication with The American Legion and 
recognition of our role in the history of this landmark. Through every 
step of the process he and his staff have striven to ensure history is 
protected and preserved in the transfer of this property. It is 
disconcerting and troubling that this site could have drifted so far 
from its initial intended disposition as a place of remembrance and 
history, but if it is to have productive purpose in the future, at 
least there is some merit in finally ensuring that the history it 
represents is put in the hands of those who will be careful custodians 
of the past.
    As stated previously, our own preamble to the Constitution of The 
American Legion avers to ``preserve the memories and incidents of our 
associations in the Great War[s]'', but also commits our organization 
to the importance of ``safeguard[ing] and transmit[ing] to posterity 
the principles of justice, freedom and democracy.'' \9\
---------------------------------------------------------------------------
    \9\ Preamble to the Constitution - The American Legion
---------------------------------------------------------------------------
    This legislation has the potential to help VA meet the 
infrastructure challenges of the 21st century, however it must also 
serve to help preserve the memory of what was fought for and sacrificed 
for at the dawn of the 20th century.

    The American Legion supports this draft legislation.

                               Conclusion
    As always, The American Legion thanks this subcommittee for the 
opportunity to explain the position of the over 2 million veteran 
members of this organization. For additional information regarding this 
testimony, please contact Mr. Warren J. Goldstein at The American 
Legion's Legislative Division at (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0374646c6f677077666a6d436f66646a6c6d2d6c71642d">[email&#160;protected]</a>
                       APPENDIX A: 1991 INVENTORY

                                 <F-dash>
                 Prepared Statement of Stella S. Fiotes
    Good afternoon Chairman Benishek, Ranking Member Brownley, and 
Members of the Committee. Thank you for inviting us here today to 
present our views on several bills that would affect VA benefits 
programs and services. Joining me today is Vince Kane, Special 
Assistant to the Secretary. On December 3, H.R. 4129, the ``Jumpstart 
VA Construction Act'' was added to the hearing agenda. VA will provide 
views on that bill to the Committee at a later time.

    H.R. 3484 - The Los Angeles Homeless Veterans Leasing Act of 2015.

    H.R. 3484 would authorize the Secretary of Veterans Affairs to 
enter into Enhanced-Use Leases and other agreements for housing and 
services at VA's West Los Angeles Campus in Los Angeles, California. 
The leases would principally benefit Veterans and their families, 
including severely disabled, aging, women, and homeless Veterans.
    VA strongly supports this legislation. It would enable VA to enter 
into agreements with housing providers, local governments, community 
partners, and non-profits to provide additional housing and services 
for homeless and disadvantaged Veterans. Such leases would be squarely 
Veteran focused, as the benefits resulting from them would be designed 
to principally benefit Veterans and their families. The legislation 
would also enable VA to work with state entities such as the University 
of California, Los Angeles, to obtain improved services for Veterans, 
over and above the range of benefits generated from the current VA-UCLA 
medical affiliation arrangement. This effort is in line with VA's goal 
to foster and improve its medical affiliations nationwide, to help 
ensure that sufficient quality and quantity of doctors, nurses, and 
research are available, to help ensure that Veterans will receive 
improved care and services well into the 21st Century and beyond.
    The legislation is important to VA's goal of revitalizing the 
campus into a rich and vibrant community, which Veterans will be proud 
to call home. It would dovetail with existing law contained in Section 
224, Division I, of Public Law 110-161, the Consolidated Appropriations 
Act of 2008, to prohibit VA from selling or disposing of any land 
interests in the West Los Angeles Campus to third parties. 
Additionally, the legislation contains several significant protections, 
to ensure fulfillment of the bill's objectives. The protections include 
the following:

    <bullet>  All leases must be consistent with the new Master Plan 
under development, with community input, that will detail how the 
campus will be used to benefit all Veterans;
    <bullet>  Office of Inspector General (OIG) audit reports on lease 
and land-use management of the West Los Angeles Campus will be required 
to be issued two years following enactment of this legislation, five 
years following enactment, and then as necessary;
    <bullet>  VA will be prohibited from entering into new leases 
during any periods where it is found by the OIG that VA is out of 
compliance with Federal policy or law pertaining to leases and land-use 
on the campus, until the Department certifies it has implemented all 
recommendations of the OIG; and
    <bullet>  VA will be required to notify the Senate and House 
Veterans' Affairs Committees and the congressional delegation for the 
area encompassing the campus 45 days before entering into or renewing 
any lease, and submit an annual report evaluating all leases and land-
sharing agreements on the campus.

    These restrictions will help to ensure the campus is Veteran 
focused going forward, in a manner consistent with the underlying 1888 
deed of the property to the United States.
    Along with supporting this legislation, VA is working intensely to 
positively revitalize the West Los Angeles Campus, to make it more 
Veteran focused. Such efforts include pursuing a new master plan for 
the campus; providing additional funding to VA's homeless-related 
programs; and working with several entities in the Greater Los Angeles 
area, to help end Veteran homelessness in Greater Los Angeles. Such 
entities include the California congressional delegation; the former 
plaintiffs in the West Los Angeles litigation (Valentini v. McDonald) 
that was settled in January 2015; Veterans Service Organizations; 
Veterans; State and local authorities; non-profit entities; VA 
contractors; the local community; and charitable organizations. Through 
such efforts and hopeful enactment of this proposed legislation, VA is 
confident that all homeless Veterans of Greater Los Angeles will be 
able to obtain housing and wrap-around supportive services, so that 
they can have restored dignity and improve their lives and well-being.
    The ongoing Master Planning process takes into account VA's clear 
priority to prospectively operate the campus as a vibrant, welcoming, 
and sustainable community where all Veterans - including homeless, 
severely disabled, women, and elderly Veterans will feel comfortable 
accessing care, living, and interacting with one another, their 
families, VA personnel, and visitors.
    Since March of this year, almost 1,400 Los Angeles area Veterans 
have been placed into permanent housing through the implementation of 
housing first principles. Housing first is the proven method where 
homeless Veterans are placed into housing with the needed supportive 
services to keep them in housing and more effectively help them 
reintegrate into their community. On average, almost 275 Veterans per 
month are being placed into housing, largely through VA outreach, 
coordination efforts, and funding commitments. VA has also increased 
resources to expand capacity to care for homeless and at-risk of 
homelessness Veterans. Specifically, in 2015 an additional $30 million 
was provided for Supportive Services for Veteran Families homeless 
prevention, and rapid rehousing programs. Approximately 800 HUD-VASH 
vouchers were awarded for Greater Los Angeles. This increased the total 
vouchers in Greater Los Angeles to nearly 6,000. An additional 325 new 
beds have also been added at the West Los Angeles Campus for bridge or 
emergency housing for Veterans in need.
    Despite these enhancements, there is more to do to care for our 
Veterans. The legislation will address gaps in services and facilitate 
the revitalization of the 388 acre campus to better serve Veterans. It 
will also ensure we care for disadvantaged Veteran populations to 
ensure they have needed healthcare and housing.
    VA estimates that HR 3484 will be cost-neutral because it provides 
for outlease of certain properties on the VA West Los Angeles Campus, 
without additional cost to VA. The bill does not create an obligation 
by VA to fund the housing or services contemplated by Section 2. There 
is also no obligation for VA to use future appropriations to fund 
capital or other costs related to the outleases authorized by this 
section.

    H.R. 3262 - To Provide for the Conveyance of Land of the Illiana 
Health Care System of the Department of Veteran Affairs in Danville, 
Illinois.

    VA supports H.R. 3262, which would require VA to convey 0.6 acres 
of real property and improvements, known as Building Number 48, at the 
VA Illiana Health Care System, to the Danville Area Community College 
of Danville, Illinois.
    Although Building Number 48 has been vacant for a number of years, 
VA incurs maintenance costs, and is expending sums to heat the 
building, provide fire monitoring/protection and structural 
maintenance, and assure a safe surrounding area for a building. 
Further, VA does not have any future plans for this building. Failure 
to convey this property will require VA to expend upwards of $98,000 in 
continued maintenance costs over a ten (10) year period. In return for 
the conveyance of Building Number 48, Danville Area Community College 
will convey 1.06 acres of land to the United States. This acquisition 
of property will allow VA to straighten the property line of the 
campus, subsequently shortening the amount of fencing that would be 
required to create a secure campus.

    VA's FY 2016 Construction Legislative Proposal.

    This bill will authorize eight major construction projects and 
eighteen major lease projects for the Veterans Health Administration. 
In addition, authorization of VA's construction bill would expand 
opportunities for VA to work with other Federal agencies and expand the 
capabilities of the Department's Enhanced Use Leasing (EUL) program to 
allow VA to further repurpose vacant and underutilized properties 
reducing the financial burden to maintain these properties. These 
programs are critical to increasing Veterans' access to safe, secure, 
and state-of-the art care nationwide, when and where it is needed.
    The Department's main priority is to provide high-quality care to 
Veterans in facilities that are procured legally, constructed soundly, 
and comply with Federal requirements for accessibility, safety, and 
security. If VA's budget request is authorized, points of service for 
VA health care would be created or expanded, through both construction 
and leasing activities. The eight major construction projects would 
allow VA to address seismic building deficiencies in Long Beach, San 
Francisco, and West Los Angeles, California, and American Lake, 
Washington. The projects would also allow VA to construct and/or 
renovate clinical and community living center facilities to expand and 
upgrade VA's owned-property portfolio. The eighteen major leases 
proposed would serve Veterans in twelve states and would provide over 
1.5 million square feet of leased space, establishing new presences or 
replacing and upgrading existing leases.
    In addition to its construction and leasing activities, VA's 
authorization bill includes a request to expand the definition of 
``Medical Facilities'' in VA's authorizing statutes to allow VA to more 
easily plan, design, construct, or lease medical facilities jointly 
with other Federal agencies. VA and the Department of Defense (DoD) 
have a unique relationship with regard to Veterans health care. VA is 
currently constrained in its ability to partner with DoD or any other 
agency and cannot easily act on partnership opportunities without 
expanding the definition of ``Medical Facilities.''
    The EUL Program is another means to provide services as well as 
properly utilize VA's owned property portfolio. If authorized, the 
proposed bill would expand VA's current EUL authority, which is now 
restricted to housing purposes, to allow a full range of uses. This 
would give VA more opportunities to engage the private sector and local 
governments to truly enhance the Department's use of currently 
underutilized property.
    VA has also put in place sound construction management processes to 
ensure success in the major construction program for projects currently 
underway and future projects that VA will continue to manage, including 
medical projects under $100 million in cost. These process improvements 
allow VA to ensure proper execution of our major construction projects 
and continue to provide access to care for Veterans and their families 
around the country.
    Earlier this year, VA engaged the United States Army Corp of 
Engineers (USACE) to evaluate the Department's major construction 
program. The goal of this evaluation was to identify program 
deficiencies and opportunities for improvement in the management and 
execution of our major construction program. USACE noted numerous 
strengths in VA's program and highlighted the quality and commitment of 
the project staff.
    VA agrees with this assessment and has issued policy that 
identifies roles and responsibilities within VA for the development of 
needs, requirements, and control of design and construction to assure 
alignment of the project delivery team.
    We also anticipate a productive joint effort with a non-VA federal 
partner on our future major medical projects over $100 million, as well 
as with USACE on VA's Denver major medical construction effort. Section 
502 of the Department of Veterans Affairs Expiring Authorities Act of 
2015 (Public Law 114-58), enacted on September 30, 2015, amended 
section 8103 of Title 38 United States Code to add the requirement that 
the Department of Veterans Affairs enter into an agreement with an 
appropriate non-Department Federal entity to provide full project 
management services for each medical facility project involving a total 
expenditure of more than $100,000,000 (``super construction project''). 
VA is committed to using these partnerships to best deliver facilities 
for our Veteran population.
    We will be glad to work with the Committee on all of the items in 
the bill and appreciate the committee's interest in this bill.

    H.R. 4056 - To Authorize the Secretary of Veterans Affairs to 
Convey to the Florida Department of Veteran Affairs All Right, Title, 
and Interest of the United States to the Property Known as ``The 
Community Living Center'' at the Lake Baldwin Veterans Affairs 
Outpatient Clinic, Orlando, Florida.

    H.R. 4056 would authorize the Secretary of Veterans Affairs to 
convey all right, title, and interest in real property known as ``The 
Community Living Center'' located at the Lake Baldwin Veterans Affairs 
Outpatient Clinic in Orlando, Florida to the State of Florida, Florida 
Department of Veteran Affairs.
    VHA supports H.R. 4056. This action is in alignment with the Lake 
Baldwin Campus Re-Purpose plan and will permit a productive partnership 
between VA and the Florida Department of Veterans Affairs, which will 
accept the property in an ``as is'' condition.
    Currently, VA is maintaining the Community Living Center property; 
however, VA has no plans for future use of this building after the full 
activation of the Lake Nona Campus. While maintenance, utility 
expenses, and due diligence costs are minimal in regard to maintaining 
the property, current Facilities Condition Assessment (FCA) correction 
costs, regarding future use of the property, exceed $1.6 million for 
infrastructure system upgrades, architectural corrections, and IT room 
upgrades. Further, this conveyance to the State of Florida will provide 
a needed long-term health care option to Central Florida Veterans as 
well as fill a State-identified gap in long term care needs. Although 
the draft bill raises technical and implementation concerns, VA would 
be pleased to work with the Committee to address these concerns.

    Draft Bill - To Amend the Veterans' Benefits Programs Improvement 
Act of 1991 to authorize the Secretary of Veteran Affairs to sell 
Pershing Hall, and for other purposes.

    In 1991, Congress enacted Section 403 of Public Law 102-86 to 
transfer the jurisdiction, custody, and control of Pershing Hall to VA. 
Due to the costs of maintaining the historic landmark and the 
deteriorating condition of the building, Congress authorized VA to 
outlease the building for up to 35 years. In 1993, Congress increased 
the allowable lease term to 99 years (Public Law 103-79). In 1998, VA 
executed a 99-year lease agreement with a private developer. The 
developer made significant improvements to the property, converting the 
building into a hotel and memorial.
    This Draft Bill would amend the Veterans' Benefits Programs 
Improvement Act of 1991 to authorize the Secretary of Veterans Affairs 
to sell Pershing Hall. VA has no objection to selling or disposing of 
Pershing Hall, with accommodations for our Veterans Service 
Organizations. VA would also like to be able to transfer the sale 
proceeds for the fair market value of Pershing Hall into VA's capital 
accounts without further appropriation. While VA has technical and 
implementation concerns about the bill as drafted, VA would be pleased 
to work with the Committee to address these concerns.
    VA cannot estimate the cost or savings of this Draft Bill because 
of uncertainty regarding fair market value.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. I would be pleased to respond 
to questions you or the other Members of the Subcommittee may have 
regarding the bills on the agenda today.

                                 [all]
                                 
                                 
                                 
                                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
